<html>
<title> - WORKPLACE LEAVE POLICIES: OPPORTUNITIES AND CHALLENGES FOR EMPLOYERS AND WORKING FAMILIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                WORKPLACE LEAVE POLICIES: OPPORTUNITIES
                    AND CHALLENGES FOR EMPLOYERS AND
                            WORKING FAMILIES

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTH,
                    EMPLOYMENT, LABOR, AND PENSIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, DECEMBER 6, 2017

                               __________

                           Serial No. 115-31

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




           Available via the World Wide Web: www.gpoinfo.gov
                                   or
            Committee address: http://edworkforce.house.gov
            
            
            
                                _________ 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-662 PDF                  WASHINGTON : 2018                 
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                    TIM WALBERG, Michigan, Chairman

Joe Wilson, South Carolina           Gregorio Kilili Camacho Sablan,
David P. Roe, Tennessee                Northern Mariana Islands
Todd Rokita, Indiana                   Ranking Member
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Rick W. Allen, Georgia               Donald Norcross, New Jersey
Jason Lewis, Minnesota               Lisa Blunt Rochester, Delaware
Francis Rooney, Florida              Carol Shea-Porter, New Hampshire
Paul Mitchell, Michigan              Adriano Espaillat, New York
Lloyd K. Smucker, Pennsylvania       Joe Courtney, Connecticut
A. Drew Ferguson, IV, Georgia        Marcia L. Fudge, Ohio
Ron Estes, Kansas                    Suzanne Bonamici, Oregon

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 6, 2017.................................     1

Statement of Members:
    Sablan, Hon. Gregorio Kilili Camacho, Ranking Member, 
      Subcommittee on Health, Employment, Labor, and Pensions....     3
        Prepared statement of....................................     5
    Walberg, Hon. Tim, Chairman, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Brickmeier, Ms. Barbara, Vice President for Human Resources 
      and Business Development, IBM Corporation..................    17
        Prepared statement of....................................    19
    Lukas, Ms. Carrie, President, Independent Women's Forum......    36
        Prepared statement of....................................    38
    Riemer, Mr. Hans, President, Montgomery County Council.......    25
        Prepared statement of....................................    27
    Schaefer, Ms. Angela, Vice President of Human Resources, 
      Safety National............................................     6
        Prepared statement of....................................     9

Additional Submissions:
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon:
        Letter dated December 5, 2017, from Patagonia............    70
        Letter dated December 15, 2017, from The Human Rights 
          Campaign...............................................   107
    Mr. Sablan:
        Letter dated December 5, 2017............................    94
        Letter dated December 5, 2017............................    99
        Letter dated December 5, 2017, from MomsRising.org.......   104
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Letter dated December 6, 2017, from American Sustainable 
          Business Council.......................................    52
        Questions submitted for the record.......................   111
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire:
        Prepared statement of The National Treasury Employees 
          Union..................................................    79
        Prepared statement of NYC Consumer Affairs...............    81
    Chairman Walberg:
        Letter dated December 5, 2017, from Progressive Policy 
          Institute (PPI)........................................    91
        Letter dated May 18, 2017, from Save Our Savings 
          Coalition..............................................    25
        Prepared statement of Sessions, Hon. Pete, a 
          Representative in Congress from the State of Texas.....    27
    Ms. Schaefer responses to question submitted for the record..   115


              WORKPLACE LEAVE POLICIES: OPPORTUNITIES AND

             CHALLENGES FOR EMPLOYERS AND WORKING FAMILIES

                              ----------                              


                      Wednesday, December 6, 2017

                       House of Representatives,

                        Subcommittee on Health,

                    Employment, Labor, and Pensions,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Tim Walberg 
[chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Wilson of South Carolina, 
Roe, Rokita, Allen, Lewis, Mitchell, Smucker, Estes, Foxx, 
Sablan, Norcross, Blunt Rochester, Shea-Porter, Espaillat, 
Courtney, Fudge, and Bonamici.
    Also Present: Representatives Scott, Handel, and DeLauro.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Michael Comer, Press Secretary; Rob 
Green, Director of Workforce Policy; Callie Harman, 
Professional Staff Member; Nancy Locke, Chief Clerk; Kelley 
McNabb, Communications Director; Rachel Mondl, Professional 
Staff Member and Counsel; James Mullen, Director of Information 
Technology; Alexis Murray, Professional Staff Member; Krisann 
Pearce, General Counsel; Benjamin Ridder, Legislative 
Assistant; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Olivia Voslow, Legislative Assistant; Joseph Wheeler, 
Professional Staff Member; Michael Woeste, Press Secretary; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Kyle deCant, Minority Labor Policy Counsel; Christine Godinez, 
Minority Labor Policy Associate; Eunice Ikene, Minority Labor 
Policy Advisor; Stephanie Lalle, Minority Digital Press 
Secretary; Kevin McDermott, Minority Senior Labor Policy 
Advisor; Richard Miller, Minority Labor Policy Director; Udochi 
Onwubiko, Minority Labor Policy Counsel; Veronique Pluviose, 
Minority Staff Director; and Arika Trim, Minority Deputy 
Communications Director.
    Chairman Walberg. Good morning, and welcome to today's 
subcommittee hearing.
    Today, we'll discuss workplace leave policies, related 
opportunities and challenges facing employers and working 
families in ways in which we can encourage employers to develop 
or expand successful paid leave options for their employees.
    This century has vastly -- has a vastly different business 
landscape than the last. From the advent of the gig economy to 
the demand for telework and other worklife policies that 
address employees' needs, business as usual just doesn't work 
for working families anymore. In response, many employers have 
implemented and continue to implement innovative paid leave 
policies.
    In fact, today's workers are starting to consider these 
paid leave policies alongside other traditional tangible 
benefits, like pay raises. A 2015 study conducted by Harris 
Poll and Glassdoor found that nearly four in five employees 
would prefer new or additional benefits or perks over a pay 
increase.
    Additional studies have validated this employment trend 
even more in recent years. This year, the HR Policy Association 
released a study that noted, and I quote: nearly 70 percent of 
its members find the millennials expect greater flexibility 
with regards to scheduling and time off.
    Innovative paid leave policies are not only an important 
tool for businesses to attract and retain the best employees, 
but they also give workers across all business sectors the 
ability to create a better worklife balance. Time off is 
increasingly important to employees, whether it's used to go 
back to school, care for a child or a loved one, or just spend 
more time with the family.
    Employers are responding to these changing expectations by 
offering employees a wider variety of benefits. In addition to 
providing traditional paid time off and sick leave, an 
increasing number of companies have added flexible work 
arrangement options to their employment leave policies. These 
arrangements may allow employees to take advantage of cutting-
edge offerings like flexible hours, telecommuting, compressed 
workweeks, and job sharing. Importantly, these arrangements are 
tailored to the needs of employers' workforce.
    And employers continue -- as employers continue to develop 
and deploy these leave policies, there has been a significant 
increase in new and oftentimes conflicting state and local paid 
leave mandates. These growing patchwork of mandates across 
multiple jurisdictions creates a real administrative and 
implementation burden, particularly on small businesses, while 
also increasing compliance costs for employers. For example, 
currently, there are eight states and over 30 localities with 
paid leave laws on the books. By contrast, 20 states have bans 
against local paid leave -- or paid sick leave laws.
    As you might imagine, all these states and local laws are 
far from consistent. The current patchwork of leave -- paid 
leave laws at the state and local level can pose challenges to 
employers of all sizes trying to navigate them. And the 
mandatory nature of these laws deprives businesses of freedom 
to craft individualized policies to best address the needs of 
their employees. That doesn't help employers and it doesn't 
help their workers.
    Today's hearing should give all of us valuable firsthand 
insight into the evolving topic of workplace leave policies, 
and I look forward to the discussion.
    I now yield to Ranking Member Sablan for his opening 
remarks.
    [The statement of Chairman Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Chairman, Subcommittee on 
                 Health, Employment, Labor and Pensions

    This century has a vastly different business landscape than the 
last. From the advent of the gig economy to the demand for telework and 
other work-life policies that address employees' needs, ``business as 
usual'' just doesn't work for working families anymore. In response, 
many employers have implemented and continue to implement innovative 
paid leave policies.
    In fact, today's workers are starting to consider these paid leave 
policies alongside other traditional, tangible benefits like pay 
raises. A 2015 study conducted by Harris Poll and Glassdoor found that 
nearly four in five employees would prefer new or additional benefits 
or perks over a pay increase.
    Additional studies have validated this employment trend even more 
in recent years. This year, the HR Policy Association released a study 
that noted ``nearly 70 percent of [its] members find that millennials 
expect greater flexibility with regard to scheduling and time off.''
    Innovative paid leave policies are not only an important tool for 
businesses to attract and retain the best employees, but they also give 
workers across all business sectors the ability to create a better 
work-life balance. Time off is increasingly important to employees, 
whether it's used to go back to school, care for a child or loved one, 
or just to spend more time with family.
    Employers are responding to these changing expectations by offering 
employees a wider variety of benefits. In addition to providing 
traditional paid time off and sick leave, an increasing number of 
companies have added flexible work arrangement options to their 
employment leave policies. These arrangements may allow employees to 
take advantage of cutting-edge offerings like flexible hours, 
telecommuting, compressed work weeks, and job sharing. Importantly, 
these arrangements are tailored to the needs of the employer's 
workforce.
    As employers continue to develop and deploy these leave policies, 
there has been a significant increase in new and oftentimes conflicting 
state and local paid leave mandates. This growing patchwork of mandates 
across multiple jurisdictions creates a real
    administrative and implementation burden, particularly on small 
businesses, while also increasing compliance costs for employers.
    For example, currently there are eight states and over 30 
localities with paid leave laws on the books. By contrast, 20 states 
have bans against local paid sick leave laws.
    As you might imagine, all these state and local laws are far from 
consistent. The current patchwork of paid leave laws at the state and 
local level can pose challenges to employers of all sizes trying to 
navigate them. And the mandatory nature of these laws deprives 
businesses of the freedom to craft individualized policies to best 
address the needs of their employees. That doesn't help employers, and 
it doesn't help their workers. Today's hearing should give all of us 
valuable, firsthand insight into the evolving topic of workplace leave 
policies, and I look forward to the discussion.
                                ------                                

    Mr. Sablan. Good morning everyone. And, Mr. Chairman, thank 
you for holding this hearing to call attention to the problem 
facing millions of working people who have -- who lack access 
to paid sick leave, paid family and medical leave, and 
predictable scheduling.
    Here is the problem. An estimated 37 million workers, many 
employed in service industries and low-wage jobs, cannot earn a 
single paid sick day to care for themselves when they get sick 
or to go to the doctor. Nearly a quarter of adults have lost a 
job or have been threatened with job loss for taking time off 
because of personal illness or to care for a family -- to care 
for a family member or family members.
    In 2016, only 13 percent of private industry employees had 
access to paid family leave through their employers. Lack of 
paid family leave policy cost workers an estimated $20 billion 
in lost wages every year. Many working people lack predictable 
schedules as well. Approximately 41 percent of hourly workers 
receive their work schedules only seven days in advance, making 
it difficult for workers to make a living and meet the 
responsibilities at home.
    Increasing workplace flexibility is clearly a core economic 
issue. Today, I hope we will explore solutions to improve the 
economics for workers and employers.
    There is also good news. Access to earned sick leave, sick 
days -- earned sick days has increased up from 61 percent of 
private sector workplace in 2015 to 68 percent. This favorable 
trend has been driven, in large part, by earned sick days, 
legislation recently enacted by eight states and 32 localities.
    In 2016, an Obama administration executive order provided 
over 1 million federal contract workers with up to seven paid 
sick days. However, there are no federal laws providing for or 
requiring employers to provide employees with paid or unpaid 
sick days. The Healthy Family Act, H.R. 1516, introduced by 
Representative DeLauro, and which I am a cosponsor, establishes 
a worker's right to earn paid sick leave by providing one hour 
of sick leave for every 30 hours worked, up to 56 hours per 
year.
    Paid sick days can save employers, taxpayers, and families 
money, while promoting healthier workplaces and communities. 
Workers without paid sick days are more likely to report going 
to work with a contagious illness, like the flu, and risk 
infecting others.
    Parents without paid sick days are more than twice as 
likely as parents with paid sick days to send a sick child to 
school or day care. The Family and Medical Leave Act of 1993, 
FMLA, provides up to 12 weeks of unpaid, job protected leave 
for key family caregiving responsibilities, such as the birth 
and care of a newborn or the care of a family member with a 
serious health condition.
    But the vast majority of the private sector workforce 
doesn't have access to paid family leave. According to the 
Bureau of Labor Statistics, only about 15 percent of workers 
have access to paid family leave through their employers. The 
FAMILY Act, H.R. 947, also introduced by Representative 
DeLauro, and which I also cosponsor, addresses this problem. It 
guarantees workers 12 weeks of paid family and medical leave 
financed through a social insurance program funded by both 
employees and employers, who each make a contribution of two-
tenths of 1 percent of wages. In return, workers would receive 
two-thirds of their wages during eligible family leave.
    Mr. Chairman, I'm also concerned about two legislative 
proposals that merit careful scrutiny. One proposes a paid sick 
leave credit of 12 to 25 percent. This may sound like an 
attractive inducement, but there is little evidence that this 
would incentivize employers who do not already have a paid sick 
plan to create one. In a recent Ernst & Young survey, 35 
percent of small businesses did not see a tax credit as a 
benefit to inspire them to offer paid leave.
    We also need to critically and carefully assess the 
Workflex in the 21st Century Act. This bill would allow 
employers to create a new qualified flexible workplace 
arrangement plan under the Employer Retirement Income and 
Security Act. That's ERISA. It is concerning that this plan 
could enable employers to avoid compliance with State and local 
paid leave, family leave, wage and hour, and predictable 
scheduling laws. We should not put downward pressure on 
workplace benefits that already exist or could be enacted.
    I hope we can have a robust discussion today about creating 
minimum standards for earned sick days, family and medical 
leave, and flexible and predictable schedules.
    I appreciate the witnesses taking their valuable time to 
discuss these issues with us today, and I look forward to 
hearing their testimony.
    Thank you, and I yield back my time, Mr. Chairman.
    [The statement of Mr. Sablan follows:]

  Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Ranking 
     Member, Subcommittee on Health, Employment, Labor and Pensions

    Mr. Chairman, thank you for holding this hearing to call attention 
to the problem facing millions of working people who lack access to 
paid sick leave, paid family and medical leave, and predictable 
scheduling. Here is the problem:
    An estimated 37 million workers - many employed in service 
industries and low wage jobs - cannot earn a single paid sick day to 
care for themselves when they get sick or to go to the doctor. Nearly a 
quarter of adults have lost a job or have been threatened with job loss 
for taking time off because of personal illness or to care for a family 
members.
    In 2016, only 13 percent of private-industry employees had access 
to paid family leave through their employers. Lack of paid family leave 
policy costs workers an estimated $20 billion in lost wages each year.
    Many working people lack predictable schedules. Approximately 41 
percent of hourly workers receive their work schedules only seven days 
in advance, making it difficult for workers to make a living and meet 
their responsibilities at home.
    Increasing workplace flexibility is clearly a core economic issue. 
Today, I hope we will explore solutions to improve the economics for 
workers and employers.
    There is also good news. Access to earned sick days has increased - 
up from 61 percent of private sector workplaces in 2015 to 68 percent. 
This favorable trend has been driven in large part by earned sick days 
legislation recently enacted by eight states and thirty-two localities. 
In 2016, an Obama administration Executive Order provided over one 
million federal contract workers with up to seven paid sick days. 
However, there are no federal laws providing for or requiring employers 
to provide employees with paid or unpaid sick days.
    The Healthy Families Act, H.R. 1516, introduced by Representative 
DeLauro and which I am a cosponsor, establishes a worker's right to 
earn paid sick leave by providing one hour of sick leave for every 30 
hours worked, up to 56 hours per year.
    Paid sick days can save employers, taxpayers, and families' money 
while promoting healthier workplaces and communities. Workers without 
paid sick days are more likely to report going to work with a 
contagious illness, like the flu, and risk infecting others. Parents 
without paid sick days are more than twice as likely as parents with 
paid sick days to send a sick child to school or day care.
    The Family and Medical Leave Act of 1993 (FMLA) provides up to 12 
weeks of unpaid job-protected leave for key family caregiving 
responsibilities, such as the birth and care of a newborn or the care 
of a family member with a serious health condition.
    But the vast majority of the private sector workforce doesn't have 
access to paid family leave. According to the Bureau of Labor 
Statistics, only about 15 percent of workers have access to paid family 
leave through their employers.
    The FAMILY Act, H.R. 947, also introduced by Representative DeLauro 
and which I cosponsored, addressees this problem. It guarantees workers 
twelve weeks of paid family and medical leave, financed through a 
social insurance program funded by both employees and employers who 
each make a contribution of two-tenths of one percent of wages. In 
return, workers would receive two-thirds of their wages during eligible 
family leave.
    Mr. Chairman, I am also concerned about two legislative proposals 
that merit careful scrutiny. One proposes a paid leave tax credit of 12 
to 25 percent. This may sounds like an attractive inducement but there 
is little evidence that this will incentivize employers who do not 
already have a paid leave plan to create one. In a recent Ernst and 
Young survey, 35 percent of small businesses did not see a tax credit 
as a benefit to inspire them to offer paid leave.
    We also need to critically and carefully assess the Workflex in the 
21st Century Act. This bill would allow employers to create a new 
``qualified flexible workplace arrangement plan'' under the Employee 
Retirement Income Security Act. It is concerning that these plans could 
enable employers to avoid compliance with state and local paid leave, 
family leave, wage and hour, and predictable scheduling laws. We should 
not put downward pressure on workplace benefits that already exist or 
could be enacted.
    I hope we can have a robust discussion today about creating minimum 
standards for earned sick days, family and medical leave, and flexible 
and predictable schedules.
    I appreciate the witnesses taking their valuable time to discuss 
these issues with us today and I look forward to their testimony.
    Thank you and I yield back the balance of my time.
                                ------                                

    Chairman Walberg. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    And now it's my privilege to introduce the distinguished 
witnesses who are here, who will provide context to what we're 
discussing today. And we appreciate you being willing to 
address our committee this morning.
    First, Ms. Angela Schaefer is vice president of human 
resources with Safety National of St. Louis, Missouri, and is 
testifying on behalf of the Society for Human Resources 
Management. Welcome.
    Ms. Barbara Brickmeier is vice president of benefits and 
H.R. development at IBM Corporation, and is testifying on 
behalf of the U.S. Chamber of Commerce. Welcome.
    The Honorable Hans Riemer is president of the Montgomery 
County Council in Rockville, Maryland. Welcome. It's good to 
have an elected official. Feel for us.
    Ms. Carrie Lukas is president of the Independent Women's 
Forum here in Washington, D.C. Welcome.
    I'll now ask our witnesses to raise your right hand and be 
sworn in.
    [Witnesses sworn.]
    Chairman Walberg. Thank you.
    Let the record reflect that the witnesses answered in the 
affirmative.
    Before I recognize you to provide your testimony of five 
minutes, let me briefly explain the lighting system. It's a 
stoplight pattern. Green means go, yellow means start to wrap 
it up, you have one minute left, and red means it's time to hit 
the brakes and finish your sentence or your thought. But you'll 
have plenty of opportunity, I'm sure, to address the majority 
of your concerns and ideas by the questions of our committee, 
who will try to hold to five minutes as well for questioning. 
And of course, your written record is part of our record also.
    So having said that, let me now recognize Ms. Schaefer for 
your five minutes of testimony.

     TESTIMONY OF ANGELA SCHAEFER, VICE PRESIDENT OF HUMAN 
                   RESOURCES, SAFETY NATIONAL

    Ms. Schaefer. Good morning, Chairman Walberg and Ranking 
Member Sablan. It's an honor to be with you to discuss 
opportunities and challenges for employers and employees with 
respect to workplace leave policies. I serve as the vice 
president of human resources for Safety National, an insurance 
carrier headquartered in St. Louis, Missouri, and I appear 
today on behalf of the Society of Human Resource Management, or 
SHRM.
    Mr. Chairman, it goes without saying that we are all 
incredibly busy these days at home and work. Considering that 
42 percent of employees have childcare responsibilities and 31 
percent expect to provide elder care in the next five years, 
it's no surprise that more than 40 percent of men and women 
experience work-family conflict.
    Clearly, employees today are juggling even more 
responsibilities between home and work, which is why today's 
discussion on workplace policies to support both employees and 
employers is so important.
    Helping our employees meet their worklife needs is a top 
priority for Safety National. That's why we offer a generous 
paid time off policy that gives employees maximum flexibility 
over how to use their paid leave. Additionally, we provide 
employees with flexible schedules, daily schedule flexibility, 
and make-up time opportunities, all of which are outlined in my 
written testimony.
    In addition to my company, many other employers voluntarily 
offer generous workplace flexibility options to support their 
recruitment and retention strategies. These offerings often 
provide a competitive advantage in the search for talent.
    One of the challenges that employers, including Safety 
National, has encountered in offering these benefits is the 
fragmented set of state and local leave laws that continue to 
grow. This patchwork of rigid mandates, now at a total of 40, 
is difficult to navigate both for large multi-state employers, 
but also for small to mid-sized companies like mine.
    Because we have employees in San Francisco, for example, 
which has a sick leave requirement, as does the state of 
California, we must ensure we are complying with both, even 
though the laws are overlapping and different. These compliance 
efforts also come at a cost to my business. For example, we had 
to switch to an entirely new payroll system to meet the 
California requirement that PTO be listed on employees' 
paychecks. And this was at a cost of $76,000.
    Additionally, we had to set up multiple rules in our 
payroll system to account for the accrual and rollover rules 
under the various state and local laws. Two members of my team 
spent almost 80 hours implementing just the PTO portion of the 
new system and identifying technical issues, which is a 
significant undertaking, considering we only have 14 employees 
in the state.
    Multiple rules have also meant increased legal fees for my 
company in trying to implement and comply with these laws. This 
effort has been particularly time consuming and difficult, as 
many of these laws conflict with each other, use undefined and 
ambiguous terms, and require our outside legal counsel to 
interpret the various leave laws to ensure that our policies 
are in compliance.
    Mr. Chairman, to make the new workplace work for employers 
and today's modern workforce, we can't go by the old rules. 
Rather than more one-size-fits-all rigid government mandates 
describing how and when leave must be used, SHRM and its 
members believe that the United States must have a 21st century 
workflex policy that works for employers and employees alike.
    That is why SHRM strongly supports H.R. 4219, the Workflex 
in the 21st Century Act, because it delivers on this goal. By 
amending ERISA, the Employment Retirement Income Security Act, 
this bill provides employers the option to offer a new workflex 
plan that would include both guaranteed paid leave and access 
to flexible work arrangement to all of its employees, including 
part-time employees.
    Under H.R. 4219, employees benefit from paid leave, access 
to flexible work option, and strong employee protections that 
have been provided under ERISA for more than 40 years, while 
participating employers benefit from being able to follow a 
Federal framework rather than the current patchwork of State 
and local laws. This legislation would allow Safety National to 
treat employees consistently across all of our offices, and 
would ease the administrative burden we face within our payroll 
system.
    Mr. Chairman, work is more flexible than ever, so workplace 
rules need to be too. SHRM and its members believe public 
policy should facilitate greater employer adoption of these 
valuable workplace flexibility benefits, rather than curtail an 
employer's ability to offer policies that meet employees' 
needs.
    In closing, and on behalf of SHRM, we appreciate the 
committee's focus on this critical issue, and thank you again 
for this opportunity. I look forward to your questions.
    [The statement of Ms. Schaefer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

        
    Chairman Walberg. Thank you.
    I recognize Ms. Brickmeier for your five minutes of 
testimony.

   TESTIMONY OF BARBARA BRICKMEIER, VICE PRESIDENT FOR HUMAN 
      RESOURCES AND BUSINESS DEVELOPMENT, IBM CORPORATION

    Ms. Brickmeier. Good morning, Mr. Chairman, Ranking Member 
Sablan, and other members of the committee. I'm Barbara 
Brickmeier, VP for human resources and business development 
with IBM. I'm responsible for overseeing global benefits design 
and execution across IBM. I'm here today on behalf of the U.S. 
Chamber of Commerce to discuss the challenges facing large, 
multijurisdiction companies that must navigate the maze of 
increasingly complex, conflicting, and overlapping paid leave 
mandates across the country.
    IBM has always supported the provision of paid leave so 
employees can tend to their personal needs, whether they be 
health related or for other reasons. Providing time off to our 
regular full-time and part-time employees is not only 
consistent with our policy, but also an important tool to use 
for the well-being of our employees, while attracting the most 
highly-talented professionals. We provide a generous paid leave 
policy that includes a minimum of 15 paid vacation days, up to 
26 weeks of full or partially paid short-term disability, 12 
weeks of paid childcare bonding leave for new parents, in 
addition to sick leave.
    As a 50-state employer, a formidable challenge is the 
administrative and compliance burden created by a myriad 
inconsistencies in the various state and local leave laws, the 
speed at which new laws and amendments arise, and the sheer 
number and range of requirements applicable to IBM's diverse 
employee base around the country.
    So let me be very specific. In the area of paid sick leave, 
by my last count, there were six states, two counties, and 
roughly 30 local jurisdictions with paid sick leave laws. In 
addition, there is a federal executive order establishing paid 
leave for federal contractors. Nearly all of these apply to 
IBM. And what frustrates us is that these federal, state, and 
local paid sick leave laws are all different.
    They specify different levels of leave and include varying 
eligibility rules for employees in addition to defining covered 
family members in different ways. Implementation requirements 
such as frontloading, carryover, documentation, notification, 
and accrual rates may also vary. Furthermore, the laws are 
amended at different times, obliging us to change our leave 
offerings, postings, and notifications. I provided several 
examples of these in my written testimony. And to say the 
least, they present a complex obstacle course for employers, 
particularly multi-state employers like IBM whose populations 
vary from single digits in some locales to many thousands in 
others. I can only speculate how companies may be discouraged 
from voluntarily providing paid sick leave and are paid family 
leave to their employees because of this confusion.
    So I'm going to give a terrific example which, again, 
follows on the San Francisco example, so a San Francisco-based 
IBM. We are working on a Federal contract, would be covered by 
up to four different paid leave laws for personal illness or 
that of a covered family member, not to mention the Federal 
FMLA, which covers unpaid leave in similar circumstances. 
Specifically, an employee could be covered by Executive Order 
13706, the California Healthy Workplaces, Healthy Families Act 
of 2014, the San Francisco Paid Leave Ordinance, and the 
California Paid Family Leave Law, and they all may apply. Each 
law varies with respect to one or more factors, such as time 
off amounts, covered family members, notification, reporting, 
and recordkeeping. While the most generous provisions would 
apply, identifying them and ensuring compliance necessitates 
significant time and resources, and might actually vary with 
each employee's personal circumstance.
    Of course, IBM is not alone in this predicament, and we 
would speculate that, given our own challenges, and despite our 
significant resources and fairly sophisticated HR system, it 
must be far more burdensome and costly for smaller companies 
with fewer resources, leading to noncompliance or other 
strategies to avoid the mandates all together.
    Given the proliferation of different and complex paid leave 
mandates at the federal, state, and local levels, IBM strongly 
supports a federal preemptive legislative solution, like that 
in H.R. 4219, the Workflex in the 21st Century Act. And this is 
an example of the way employers could opt in to a single, 
national paid leave police that would satisfy compliance 
requirements in multiple jurisdictions. Such a simplified 
approach would greatly reduce costs and mitigate the staggering 
and growing administrative complexity, while allowing us to 
continue offering and designing generous leave benefits for our 
employees that would not vary based on where they work.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    [The statement of Ms. Brickmeier follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Walberg. Thank you.
    I now recognize the Honorable Hans Riemer for your five 
minutes.

 TESTIMONY OF HANS RIEMER, PRESIDENT, MONTGOMERY COUNTY COUNCIL

    Mr. Riemer. Good morning, Chairman Walberg, Ranking Member 
Sablan, and members of the committee. My name is Hans Riemer, 
and I'm the president of the Montgomery County Council here in 
Maryland. Montgomery County is an inclusive metropolitan 
community that is home to more than 1 million people, all of 
whom I represent as an at-large council member.
    I'm here today on behalf of our county council and county 
executive to speak to you about the importance of local and 
State workplace laws through the lens of Montgomery County's 
experience adopting a local paid sick days law.
    As you know, local elected officials are always on the 
ground in their communities and know the needs and the values 
of the people that they represent. I meet my constituents every 
day. I talk to them at the grocery store and community events.
    In Montgomery County, we know that working families need 
real policy solutions to provide paid leave. We listen to the 
people in our community, and in response, the Council adopted 
an Earned Sick and Safe Leave Law that guarantees workers can 
earn up to seven days of paid time off.
    In Montgomery County, our law guarantees that employees can 
use the sick leave they have earned to care for or treat an 
illness or injury. I can tell you that I have met so many 
people who have needed to use leave after an injury or sudden 
illness, such as a car crash or the flu or taking care of a 
child who broke an arm. Our law also guarantees employees can 
use leave to care for an ailing relative or to deal with 
medical or legal issues related to domestic violence or sexual 
assault. We all know families where a child has special needs 
or a parent or grandparent is sick, and their caregivers need a 
right to take at least some time to care for them.
    As you can imagine, these are not events that employees can 
predict or schedule in advance. Without paid sick time, 
employees are often forced to go to work and spread the flu to 
their coworkers or customers, or to send their kids to school 
sick and infect their classmates and teachers. We all pay the 
price.
    When the Maryland legislature passed a statewide paid sick 
leave law last year, we worked with legislators to ensure that 
our county is free to keep the stronger policy that works for 
us. We have also been working with our state legislators to 
find a way to adopt a longer-term paid family and medical leave 
program.
    There is no one-size-fits-all solution to workplace leave 
policies, but there is a baseline protection that every worker 
in America deserves. Congress should adopt common sense 
policies, like the Healthy Families Act, the FAMILY Act, and 
the Schedules That Work Act, that set a standard, while 
allowing states and local governments to determine what 
additional protections make sense for them.
    We strongly oppose H.R. 4219, which would undermine our 
paid sick days law and turn back the clock for more than 13 
million working people who have gained access to paid sick days 
through laws passed in eight states and 32 local jurisdictions.
    H.R. 4219 does not provide paid sick days; it takes them 
away. H.R. 4219 takes away important rights to sick leave that 
local and state governments have granted to their residents, 
rights that were granted using sovereignty that belongs to us. 
The federal law would create an off-ramp for employers to evade 
state and local laws presently covering millions of people. The 
law goes against the basic tenet that if a decision can be made 
closer to the people without violating important principles, 
then that is where the decision-making power should fall.
    By creating an escape hatch from state and local law, H.R. 
4219 eviscerates the hard-won right to earn paid sick time that 
my constituents have, and puts decision -making back in the 
hands of their employers, who could unilaterally deny their 
urgent leave request. Many states have health, safety, and 
environmental requirements that may differ from federal law. 
Businesses that are large enough to operate in multiple 
jurisdictions have advance system to address these differences. 
Instead of working to undermine state and local law, let's work 
together to improve people's lives through a national minimum 
paid sick day standard and a national paid family and medical 
leave plan.
    State and local governments have long been the laboratories 
of democracy, helping forge workable national standards. 
Congress should safeguard, not undermine, our ability to do 
what we think is right for our constituents.
    H.R. 4219 will create confusion in the workforce, 
overburden and undermine local and state governments, and 
jeopardize the family life and public safety of millions of 
people. Thank you.
    [The statement of Mr. Riemer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairman Walberg. Thank you.
    And now, Ms. Lukas, we recognize you for your five minutes.

TESTIMONY OF CARRIE LUKAS, PRESIDENT, INDEPENDENT WOMEN'S FORUM

    Ms. Lukas. Chairman Walberg and Ranking Member Sablan, 
thank you for the opportunity to be here this morning and talk 
about this important issue. I'm representing the Independent 
Women's Forum, a nonprofit dedicated to developing and 
advancing policies that enhance people's freedom, choices, and 
opportunities.
    IWF employs nearly 20 workers, almost all of whom are 
women. And as the person responsible for overseeing the budget, 
I know firsthand the impact that leave benefits have on a small 
business or an organization like ours.
    Like most employers, IWF works hard to support our 
employees who need time off for personal reasons, like the 
birth of a child or another family issue. We also try to be 
fair to those employees who don't need time for extended leave. 
I'm also the mother of five children, so I appreciate the 
importance of being able to take time off from work firsthand.
    I encourage you, as you consider potential reform and 
action in regards to paid leave, I'd encourage you to keep the 
following in mind: Our workplaces and our workforce are 
increasingly diverse. Growing numbers of workers are 
participating in the gig economy, which means that they are 
working for themselves as a contractor rather than for a 
traditional employer. A growing number of workers are also 
telecommuting. Families are changing too, as more women become 
sole or primary breadwinners, and more people are remaining 
childless.
    These trends should caution us against creating a one-size-
fits-all leave policy that ignores that a worker without 
children working in a traditional business is likely to have 
very different preferences for leave benefits than a self-
employed single parent. We also need to consider that 
businesses able to offer telecommuting options can provide 
different leave benefits than a restaurant or hospital that 
needs sufficient in-person staff.
    Ignoring these difference and creating a mandate or a 
government-entitlement program will impose real costs on 
workers in the form of reduced workplace flexibility, less 
hiring, and in particular, less opportunities for women of 
child-bearing age. This isn't just a theoretical risk. I got to 
live in Europe for seven years, and while these countries offer 
extensive paid leave benefits for families with children, women 
pay a considerable price in terms of workplace opportunities.
    The National Bureau of Economic Research found that EU 
countries have boosted their female labor force participation 
rate, but the women there were mostly working part time and in 
lower paid positions. While 14 percent of American female 
workers are managers compared to 15 percent of American men, 
just 5.9 percent of European female workers are managers 
compared to 22 percent of European men. So clearly, there is a 
disconnect there.
    Advocates for sweeping government action often painted a 
very grim picture of working in the United States, claiming 
that 12 percent of workers, something like that, have only -- 
that only that share has paid leave benefits. But fortunately, 
that's an inaccurate picture of how businesses here function. 
Just because employers seldom offer specific family leave 
benefits doesn't mean that workers generally don't have access 
to paid time off for family needs.
    The Census Bureau studied women having their first child 
and found that 56 percent of full-time working mothers used 
paid leave following the birth of that child, 42 percent use 
unpaid leave, 10 percent had disability leave. And this all 
adds up to more than 100 percent since some use more than one 
bucket of leave.
    These numbers suggest that there certainly are many workers 
who would appreciate more time off and could use more paid 
leave benefits, but it also tells us that most businesses and 
employers do voluntarily offer leave, and which is a reason to 
avoid upending the employment contracts of all 160 million 
working Americans, many of whom are happy with their current 
compensation arrangements.
    I would encourage that policymakers' goals should be to 
help make it easier for workers to prepare for time away from 
work and for businesses to provide leave benefits, but without 
discouraging hiring and innovative work relationships. For 
example, the government could consider creating savings account 
system, much like a 401(k) or an ESA, that would enable workers 
to save tax free for time off from work. Employers and 
charities could also contribute to these accounts, and the 
government could consider augmenting saving to encourage 
participation and particularly to help those with lower 
incomes.
    However, I think it's important to keep in mind that the 
best way to ensure that workers have the benefits they need is 
for there to be a growing economy with plentiful job 
opportunities and rising compensation so that they can find 
positions that make the most sense for themselves.
    Thank you for your time, and I look forward to your 
questions.
    [The statement of Ms. Lukas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Roe. [Presiding.] I think there's been a change in the 
chair, you might have noticed. Mr. Walberg had to go and vote. 
He had a markup.
    At this time, I would like to recognize the chairman of the 
full committee, Dr. Foxx, for five minutes.
    Mrs. Foxx. Thank you, Chairman Roe.
    And I want to thank all of our witnesses for being here 
today. This is an important issue that I think will get 
increasing attention across our country.
    Ms. Schaefer, employers have many reasons for offering 
various types of benefits packages, including health 
retirement, paid leave to employees. Would you briefly explain 
why employers offer paid leave policies to their employees and 
how this practice aids in attracting and retaining the best 
workers?
    Ms. Schaefer. Thank you for your question. Yes. It's 
important overall to employee engagement, just the fundamental 
employee engagement. It leads to reduced absenteeism and 
tardiness. It reduces turnover. It increases our ability to 
recruit and retain, as you mentioned.
    For example, I recently hired someone in my department, and 
one of the reasons she came to us was because of our flexible 
work policies. And for the employees, it's important so that 
they be able to make the decisions about how they are taking 
their time off.
    Mrs. Foxx. Thank you.
    Ms. Lukas, when confronted with government mandates, how do 
employers typically respond? And how do small businesses 
compensate for the additional costs of complying with mandates? 
What impact do these mandates have on job creation?
    Ms. Lukas. Well, certainly, I think we all know kind of the 
basic economic lesson that when costs go up, you're able to buy 
less of something. And that's what's happens when you increase 
mandates and increase the cost of employing someone, increase 
the risks associated with employing someone. Employers are more 
likely to look for ways to hire fewer workers and then to pay 
workers less.
    And we've seen, over the recent decades, that the cost of 
compensation largely or one of the reasons why they've stalled 
or our wages have stalled is because there's so much of -- our 
compensation is now in the form of benefits. So another mandate 
would increase that trend or further that trend.
    Mrs. Foxx. Thank you very much.
    Ms. Brickmeier, historically, much of the paid leave 
discussion has focused on women. Why is this paid leave issue 
not just a women's issue?
    Ms. Brickmeier. Well, I don't believe it is just a women's 
issue. Men need to take off time as well. The nature of the 
family is defined very differently for different individuals, 
something that IBM holds very dear, that people have personal 
lives, which is defined by them. And we need to respect and 
encourage them to pursue those personal goals and obligations, 
because that makes them a more healthy and productive employee.
    I can give you an example. We recently increased our child 
bonding leave for all new parents. And our male and our female 
employees, as well as adoptive parents, now get 12 weeks off 
with pay. And we find that more and more of our new dads are 
taking that time off, because they realize that child rearing, 
having responsibility for their families is as important to 
them as it is to their wives or their partners.
    Mrs. Foxx. Thank you very much. It certainly sounds as 
though IBM has a very generous paid leave program. It would be 
a great place to work.
    As you mentioned, in September 2015, President Obama issued 
an executive order requiring federal contractors to provide 
their employees up to seven days of pay sick leave per year. 
How has this requirement in particular affected IBM's paid 
leave program? Do you have an idea -- you alluded to it before, 
but do you have an idea how much time IBM spent to ensure it 
was in compliance with this particular requirement? And even 
though IBM was already offering more than required under the 
executive order, could you talk a little bit about the cost of 
reporting that occurred as a result of the mandate?
    Ms. Brickmeier. Certainly. So we decided to apply the 
mandate to 100 percent of our employees, because the way that 
it is written, it's very difficult to distinguish who's 
covered. Because I think the threshold is 20 percent or 
something of your time. It's very hard for us to determine who 
those are. So we're applying it to 100 percent of our 
population. We literally spent about nine months of my time, my 
team's time, inside counsel, outside counsel, and our HR system 
in making those modifications for tracking, because we didn't 
have a sufficient tracking system, and communicating it to 
employees.
    And again, the confusion about what they do, how they track 
it, why do they have to track it, it can go into actual hours 
of tracking, which our employees are not used to, because the 
majority of our employees are professional. They don't track 
their time down to the hour, nor do they expect to have to 
track it. So that's somewhat of a burden to them as well as to 
their managers.
    Mrs. Foxx. Thank you very much. I yield back.
    Mr. Roe. I thank the gentlelady for yielding.
    The ranking member of the full committee, Mr. Scott, you're 
recognized for five minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Riemer, are you aware of any tax -- whether or not the 
tax credit in the bill is sufficient to entice businesses to 
actually provide this kind of leave if they are not doing it 
already? Have you seen any, around the country, any program 
where that would be sufficient?
    Mr. Riemer. Thank you, Congressman. Again, it's really an 
honor to be here.
    You know, the incentive for employers, in my view, in H.R. 
4219 is to get out of state and local requirements that 
establish rights for their employees to provide leave. And if 
you are, you know, an employer that wants to provide leave, 
then -- and not every employer is necessarily a high-road 
employer, but if you are an employer that does, then, you know, 
you would not have a challenge. You would not be typically 
required to provide more leave, according to these state and 
local laws. You may have to adjust your business processes.
    But in my view, the real incentive is to opt out of state 
and local law. I don't know that the tax provision will 
necessarily provide much additional encouragement.
    Mr. Scott. Okay. In your local bill, have you had 
complaints about the legislation?
    Mr. Riemer. It's been operating now for almost a year, and 
we believe it's a success. You know, we worked very closely 
with our employers, and we heard from many employers, like IBM, 
as -- not IBM itself, but employers that offered real leave 
packages. And we made sure that our law would not, you know, 
cause an employer to want to diminish its benefits. And if they 
offer better benefits, then they are really -- you know, our 
law wouldn't be a conflict. So --
    Mr. Scott. Have any businesses moved out of the county 
because of this law?
    Mr. Riemer. We are continuing to attract new employers. Our 
economy is strong, our unemployment is a historic low. New 
companies are moving out of other jurisdictions and locating in 
Montgomery County.
    Mr. Scott. And if there were a Federal exemption, what 
would happen to your law?
    Mr. Riemer. Our law would be essentially, you know, 
hollowed out. You know, any employer could just simply evade 
the requirements of our law, which are really just a baseline. 
You know, our law is not a very generous policy. It's just a 
baseline policy of 7 paid sick days for the employee. And any 
employer could just simply avoid it by opting into this 
provision.
    Mr. Scott. Thank you.
    Ms. Schaefer, if there's no local or state law in a 
particular area, does this bill require a business to do 
anything?
    Ms. Schaefer. Thank you for your question. So to make sure 
I understand the question, if there's not currently a leave 
law, does H.R. 4219 require the employer to do something?
    Mr. Scott. Right.
    Ms. Schaefer. Okay. It's voluntary. And so if the employer 
opts in --
    Mr. Scott. The answer is no, it does not require the 
business to do anything?
    Ms. Schaefer. No.
    Mr. Scott. Okay. Now, if there is a local law and, say, as 
I understand it, you have to have up to 249 -- 50 to 249 
employees, you have to have 15 days off, and that would include 
paid holidays. So if you have nine vacation days and six 
holidays, do I understand this that you would not have to 
require any sick leave at all?
    Ms. Schaefer. I don't have the answer to those specifics.
    Mr. Scott. It appears that if there is no state law, you 
don't have to do anything. If there is a state law, you can 
have worse benefits and exempt yourself from the better 
benefits on the local law. Is there any employee, under 4219, 
who would actually be better off?
    Ms. Schaefer. They would not receive less than what they 
are already receiving.
    Mr. Scott. Excuse me?
    Ms. Schaefer. The employees would not receive less than the 
leave they're --
    Mr. Scott. No, no. That's the whole point of exemption. If 
you have a plan and the local law requires more generous 
benefits, you would be exempted from the local law and you 
would be able to get away with worse benefits. That's what the 
exemption means. Is that right?
    Ms. Schaefer. That's not my understanding.
    Mr. Scott. Hans, can you talk about what exemption means?
    Mr. Riemer. Thank you. Well, the Montgomery County law 
establishes a right. So you might accrue a certain benefit, but 
you have a right to use that benefit under certain 
circumstances, like your illness, the illness of a family 
member.
    Mr. Scott. But if it's exempted under federal law, the only 
thing you would have to do would be to comply with the Federal 
law, you wouldn't have to comply with the more generous 
benefits. That's the whole point of the exemption.
    Mr. Riemer. That's right. The employee does not have a 
right to use that benefit.
    Mr. Scott. Because it got exempted.
    Mr. Chairman, I ask unanimous consent that a letter from 
the American Sustainable Business Council in opposition to H.R. 
4219 be entered into the record.
    Chairman Walberg. [Presiding.] Hearing no objection, it 
will be entered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Scott. Thank you. My time's up.
    Chairman Walberg. I thank the gentleman. His time has 
expired.
    I apologize for having to leave occasionally here to vote 
in Energy and Commerce, but I now recognize myself for five 
minutes of questioning.
    We've heard a great deal about the piecemeal State and 
local paid leave mandates that, while well-meaning, affect 
these laws on America's businesses in somewhat negative way. 
I'd like to make one point about this. It's certainly not the 
human resources professionals that are not capable of keeping 
up with all these mandates. You're entirely capable of keeping 
up with these mandates. The point is that you should not have 
to navigate this patchwork of mandates because they're 
counterproductive.
    And to that point, Ms. Schaefer and Ms. Brickmeier, would 
your companies' commendable paid leave policies look different 
if they didn't need to be structured in such a way to ensure 
compliance with a multitude of mandates? And I guess I'd add 
would they be more or less generous?
    Ms. Brickmeier. I'd like to start. So I think the answer to 
that is it depends on what the individual State mandates are. 
And our intent would always be to design a paid leave policy 
covering a lot of different employee situations that meets the 
needs of our employees by listening to our employees and doing 
something that's consistent across the country.
    So if you're an IBMer in New York, you're an IBMer in 
California, Texas, Minnesota, Oklahoma, you're all entitled to 
the same thing, and our workforce is mobile. So it's also 
important for them to have the same thing, regardless of where 
they work. So our policy is generous, and I would agree that in 
some cases it would go beyond the mandates, and we would 
continue to do that. In other cases, it might be below, and we 
might need to particularly tweak it for that locale. But I'm 
not sure if we would have the most generous provision apply to 
all of our employees.
    And I think the most difficult part of this is the 
compliance. So not really the intent of the policies, which are 
admirable; it's the compliance, and it's really getting down to 
the recording, notification, the constant change, and the 
confusion that this causes.
    Chairman Walberg. Okay. Thank you.
    Ms. Schaefer.
    Ms. Schaefer. Most of our employees, 456 of them -- I'm 
sorry. Most of our employees are based in St. Louis, Missouri, 
where there aren't any of these extra leave laws. And so I 
would not expect that we would reduce our benefits right now. 
We are just trying to make sure that we are in compliance with 
the other State and local laws.
    Chairman Walberg. So compliance is the issue, just trying 
to keep up, make sure that you don't run amok at some point in 
time?
    Ms. Schaefer. Exactly.
    Chairman Walberg. Unintentionally, but nonetheless.
    Ms. Schaefer. Correct.
    Chairman Walberg. Listening to your testimonies, it's clear 
that you all have a lot of information, and know what will work 
and, not just for your companies, but your employees. It's been 
suggested that local officials are better suited to establish 
paid leave or sick leave requirements because they live and 
work next door to the people.
    However, rather than working next door, so to speak, 
there's a key entity that works directly with the people who 
are impacted, and that's employers, who are closer and better 
able to listen and respond to the needs of their employees when 
it comes to paid leave. They can provide innovation and 
flexibility that the government, even a local government, 
cannot.
    Ms. Schaefer and Ms. Brickmeier, why are you, as H.R. 
professionals, better attuned to the paid leave request of your 
employees than the local, State, or even Federal Government?
    Ms. Schaefer. I'll start.
    Chairman Walberg. Ms. Schaefer.
    Ms. Schaefer. Thank you for the question. We are listening 
to our employees. Our employees are explaining to us what they 
need in their leave policies. We do regular employee engagement 
surveys where there are two questions. One asks what the 
company is doing well, the other is what we can improve on. And 
those are narrative responses, and we get a lot of great 
feedback there. And then over the last three years, we've done 
regular touch-base surveys with our employees so they can give 
us the specific feedback.
    An example is when we implemented our make-up time policy, 
we were hearing that there were some hiccups, things weren't 
going as smoothly as we intended. And so we reached back out to 
our managers and supervisors and the employees to find out what 
it was that was causing issues, and then we were able to act on 
that and make changes.
    Chairman Walberg. Thank you.
    Briefly, Ms. Brickmeier.
    Ms. Brickmeier. Yes. So very similar to what Ms. Schaefer 
has said, we listen to our employees, we try -- we react. We've 
been quite generous, as I've indicated. It's also important to 
know that our employees live in every state, and so it's 
important for us to understand what's going on in that state to 
what's prevalent. And also in our industry, it's highly 
competitive. Our talent base is highly competitive, and we want 
to make sure we that offer them what they intend to use, what 
they need.
    And in devising new types of leaves, for example, now we 
are looking at something that's more specific to family illness 
leave, in addition to our parental bonding leave. And it's been 
very confusing, because we can listen to what our employees 
want, but then we have to think about these 30 other ordinances 
that might conflict with that.
    Chairman Walberg. What that means. Okay. Thank you. My time 
has expired.
    I now recognize my friend, the ranking member, Mr. Sablan.
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman.
    Let me start with Council Member Riemer. Well, first, let 
me congratulate you on becoming president of the Montgomery 
County, Maryland Council yesterday. Congratulations. And thank 
you very much for joining --
    Mr. Riemer. Thank you.
    Mr. Sablan. -- and testifying today.
    Can you tell us the importance of having a federal 
standard?
    Mr. Riemer. Yeah. Thank you.
    Mr. Sablan. Please.
    Mr. Riemer. Well, first of all, I think that many state and 
local governments are compelled to act because there is no 
federal standard for sick leave. If Congress were to create a 
right for employees to have seven days of paid sick leave that 
could be used at the right of the employee for care of 
themselves or their family member, then you may not have a need 
for state and local governments to act where Congress is not 
acting. The challenge is the legislation that we are discussing 
does not establish that right to sick leave. But if Congress 
were to create a federal strong sick leave policy and a federal 
family leave policy and so on, it would have fewer state and 
local governments feeling the need to enhance upon that federal 
protection.
    Mr. Sablan. And this is for an employee, it doesn't matter 
on the gender.
    Mr. Riemer. Correct.
    Mr. Sablan. Thank you. In your testimony, you stated that 
after passage of legislation, you continue to see economic 
growth in your county. And Ranking Member Scott has alluded to 
this earlier, but can you tell us more about that, that growth?
    Mr. Riemer. Yes. Well, Montgomery County is a very -- has a 
very strong economy. We are fortunate to have many large 
companies and many small companies. And since we have passed 
sick leave legislation, we've been delighted to see Marriott, a 
global headquartered company, move into Bethesda downtown, when 
they could have moved to Virginia or Washington. We've seen 
companies moving out of Washington into Montgomery County, so 
we have a very strong environment. Our unemployment rate is, 
you know, in the low single digits.
    So this has not caused any restriction of our economic 
growth, and to the contrary, we're seeing tremendous progress 
in Montgomery County.
    Mr. Sablan. I ask you for that and I'll ask you another 
question, because earlier, Ms. Lukas justified calling, you 
know, this -- any effort to provide some kind of federal 
standard calling it actually in her testimony, and I quote, 
``government-entitlement program,'' and when actually one of 
the proposals is to be funded responsibly by small employee and 
employer payroll contributions of 2 cents per $10 in wages, or 
less than $1.50 per week for a typical worker. So it is not an 
entitlement program. It is where the employee and the employer 
should contribute to.
    Walk us through the impacts of what would happen in 
Montgomery County if the federal bill were to pass preempting 
your paid sick days leave laws.
    Mr. Riemer. Thank you. Well, I believe that if this H.R. 
4219 were to pass, that any employer that really wanted to 
offer a less generous benefit package, provided it still met 
the minimal standard of the law, which is vague as far as what 
the worker is entitled to, in my view, would be able to opt in 
to the federal standard and opt out of the state and -- of the 
local standard.
    And so when I look at the federal legislation, there is no 
clear right that the employee has to take leave. They must get 
employer approval, and that may or may not be granted. So I 
think it would be a strong incentive for employers to opt out 
of our stronger law, and the residents of our community would 
essentially lose the right that we had granted to them through 
our democratic process.
    Mr. Sablan. Yeah. Because I've looked all over, and let me 
ask you if you've ever seen a proposal in any state, local, 
county, federal -- in the federal governments here where, you 
know, comparing what is being discussed today or at any time, 
the experienced of paid leave, and comparing what we're 
discussing today with Europe and saying like, you know, where 
in France, you get 156 weeks, 26 paid for the first child; in 
Germany, 156 weeks, 52 paid for either parent; Finland, 158 
working days for either parent. You can't compare that and 
insist that's the reason women of child-bearing age are a lower 
number of, you know, just one brush stroke, a lower number of 
management.
    I think I'm out of time. Mr. Chairman, thank you. I yield 
back.
    Chairman Walberg. I thank the gentleman.
    Now I recognize Dr. Roe for his five minutes of 
questioning.
    Mr. Roe. Thank you, Mr. Chairman.
    And first of all, Mr. Riemer, thank you. I think the best 
government is local government. That's the way I started as a 
city commissioner and local Mayor, dealt with these things, 
also was in small business. So there are very different needs 
of a large multi-State business than there are small businesses 
and individual localities. I completely see that.
    And I guess, Ms. Lukas, I'm going to start with you. Do you 
believe that these paid leave mandates discourage job creation, 
and how so, if they do?
    Ms. Lukas. Well, certainly, anything that raises the cost 
of employing a worker will discourage someone from hiring 
another worker. I am concerned, especially as I'm sure this 
committee has been focused on, the future of work and how we're 
moving increasingly towards looking for automation. A lot of 
jobs are going to be able to be displaced to take that human 
element out of it entirely. And I do think that's a reason to 
pause and to want to make sure that before we encourage more 
outsourcing or try to push people outside of a normal employer-
employee relationship if it isn't worth giving people more 
freedom and flexibility.
    Mr. Roe. You made -- Ms. Lukas, you wrote an article in The 
Washington Post comparing mandated paid leave in Europe to the 
United States. You wrote about hiring a pregnant woman -- very 
near and dear to my heart, I'm an obstetrician -- prior to her 
due date. And would you please share the story with the 
committee and explain why this would not be possible under a 
federally mandated paid leave system?
    Ms. Lukas. Well, you know, it's interesting; in my opening 
remarks, I mentioned that I employ 20 women right now, and 
three of them are pregnant. So this is an issue that at IWF 
comes up quite a lot. We seem to have a lot of babies. The 
reason that we have -- I've been very comfortable hiring people 
who are pregnant or likely to become pregnant, is we have paid 
leave, we don't have nearly as generous -- we're a small 
organization with a small budget, so we don't have nearly as 
generous policies as the big companies here.
    But we also have a conversation with this understanding, 
that, yes, some workers are going to take time off for a couple 
of weeks after following the birth of a child, but then I hope 
that they -- we kind of work out that they can be available on 
the phone or to answer quick questions. And there's this back 
and forth where, you know, there's -- we try to provide a lot 
of support and flexibility, but then our employees are also 
very willing to provide support and to make those efforts to 
support us.
    And I do worry that when we move towards something where 
there's a certain regulation, you get this many days off, 
you're not allowed to talk to an employee during those times, 
that it moves towards -- you're cutting off conversations 
between two humans, two individuals, many of whom sympathize 
with each other. So that's my concern. And I do think Europe is 
an extreme example, but we may inch in that direction. 
Certainly, people, this is -- it has implications for women in 
particular.
    Mr. Roe. Thank you.
    Ms. Brickmeier, sometimes the burdens that legislation will 
impose on businesses are not fully understood. Obviously, when 
they're played out, they do show themselves. This in turn leads 
up to hurting workers. Can you give more detail about what 
burdens the emerging State and local paid leave mandates impose 
on businesses and their workers? For example, what are the 
costs of a law like California's both in the short and the 
long-term?
    Ms. Brickmeier. So I think that the cost to the employee is 
really not understanding what they might be entitled to or what 
their options are. It's very difficult to communicate with 
employees, particularly about H.R. matters. They don't often 
read what we give them to -- you know, what we give them to 
read. We post things. They don't read those.
    And so it becomes very difficult for any one individual to 
determine what it is that they're eligible for and how to plan 
their life around it, as it's very difficult for us and our 
H.R. team to understand that, because in the example of San 
Francisco, it may vary based on the employee circumstance 
because of different covered family members, for example, for 
which you could take paid time off to help them with an illness 
might vary. So that's a difficulty from the employee 
standpoint.
    I also think the tracking that's required, we needed to 
modify our system. That detracted money and time that we might 
have spent on other things that could aid our business and our 
employees. I'd much rather be spending time designing and 
executing on benefit programs and paid leave that can enhance 
our employee engagement than on compliance, on things that I'm 
not sure add a great deal of value.
    Mr. Roe. One quick question for all -- and you may not have 
time to answer it -- is what would it matter if you just had 
days off? You didn't have to be -- have a cold one day, or some 
day you needed to do something in your life, and you have to 
say, well, I'm sick that day when you're really not. Not a 
vacation day. If you want to just take a day off. And hold that 
thought because my time is out.
    Chairman Walberg. Mr. Espaillat, you're recognized for five 
minutes.
    Mr. Espaillat. Thank you so much.
    My question goes to Council Member Riemer. Setting a 
national standard for workplace leave policy, like you have in 
Montgomery County, and in New York state, seems like a good 
idea to many, but none of the Republican plans that are out 
there seem to have this as their goal.
    Specifically, I would like to ask you two things, Mr. 
Riemer. As I mentioned, New York has a strong sick leave policy 
on the books that are making an incredible positive impact for 
families and the economy, I think. As someone who is on the 
ground working on this issue, can you talk about the rights 
that Montgomery County sick leave law provides to workers? And 
what can they use leave for? And do you provide any rights that 
this particular legislation, H.R. 42, the Workflex bill, will 
deny to your constituencies?
    Mr. Riemer. Thank you, Congressman. I really appreciate the 
question. Montgomery County's law grants workers the right, in 
Montgomery County, to use the leave that they accrue to care 
for or treat their own illness or illness of a family member, 
to use that time as well if they have an instance of domestic 
violence or sexual assault where they need to take time off. 
That is a right that they have. It's at their discretion.
    Now, if it's an extended illness, they may need medical 
certification, but it's at their discretion. As I read H.R. 
4219, what I see is that it's more of a loophole for the 
employer than a right for the employee. And the employer really 
can refuse the request for leave if, you know, that employer 
determines that they would like to do that. And, of course, the 
employer can deduct from that total leave allowed for holidays 
and other things like that. So the worker could easily end up, 
really, with very little paid sick days, without even the right 
to claim it when they really need it.
    Mr. Espaillat. My other questions are, why will providing a 
tax credit to businesses, such as proposed by H.R. 3595, be 
ineffective in creating -- or encouraging businesses to create 
new workplace leave policies?
    Mr. Riemer. Thank you, Congressman. You know, first of all, 
I'm pleased that we're talking about leave as a good business 
policy, right? It's nice to hear companies talking about why 
they must offer strong leave programs in order to compete for 
the best workers. Communities have the same need as well. 
States, local governments wants to have benefit policies to 
strengthen their workforce. My feeling is that the tax 
incentive is sort of a touch of a feather, as far as the 
incentive that it creates for a company that is in real need of 
attracting a strong workforce. The company has its own economic 
imperative to offer leave in order to attract great workers. 
The tax benefit is just kind of icing on the cake. I don't know 
that it will compel additional companies to offer leave 
programs.
    Mr. Espaillat. And currently, hourly minimum wage for tip 
workers is $2.13 per hour. How could we make sure tip workers 
receive benefits closer to their actual wages?
    Mr. Riemer. Well, that's a great question. Certainly, 
allowing workers -- tip workers to accrue leave based on hours 
worked rather than the wages paid, as the sick leave law, you 
know, would do, is important. We've grappled with the rights of 
tip workers around minimum wage policy. That's an important 
reason why you want to allow States and local governments to 
set their own law.
    Mr. Espaillat. And finally, how will creating a national 
standard for workplace leave policy help businesses who operate 
in your county? You said that you have small businesses there, 
large businesses, the economy that's pretty strong, and others 
organize their benefits they provide for their employees. How 
will it help create a workplace leave policy that will help 
businesses? What has been your experience in the county?
    Mr. Riemer. We've heard from many employers who said to us, 
we want to provide these benefits for our workers. You know, 
we're a restaurant, we're a cafe, we're a small business. We 
want to provide these. Unfortunately, we're competing with 
employers who do not want to provide them. And so we're 
carrying a cost that they don't have to carry. And that is not 
a level playing field.
    So a federal standard will protect businesses that want to 
do the right thing from low-road employers. I think that is a 
real benefit. It will also just establish the rules of the 
road, and then business processes will adjust. Software 
companies, payroll companies, will make changes to their system 
so no particular employer is going to have to pay for it in the 
first place.
    Mr. Espaillat. Thank you so much, Mr. Riemer.
    Mr. Riemer. Thank you, Congressman.
    Mr. Roe. I thank the gentleman for yielding.
    Mr. Allen, you're recognized for five minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you for 
having this important hearing.
    I guess my first question would go to Ms. Lukas. Obviously 
-- well, you take healthcare, for example. Healthcare was 
created during World War II, and because there was tremendous 
competition for employees and companies needed a way to attract 
those employees, so they gave them healthcare benefits. Now the 
government mandates healthcare, and it is a royal mess.
    In my experience in the business world, when hiring people, 
they want to look at workplace flexibility, they want to look 
at paid leave, they want to look at all these things. And if a 
company is going to compete for those employees, obviously they 
want to offer the right kind of package with the right kind of 
compensation to attract that employee to come to work for them. 
That's the way it should work.
    With the government mandating benefits, what is that going 
to do, as far as trying to attract the best, brightest 
employees out there? I mean, it kind of takes one equation out, 
does it not?
    Ms. Lukas. Absolutely. And I do think that this idea that 
there is a minimum standard that everyone must have, that 
rather than having an extra $10 in your paycheck, that you'd 
rather have an extra hour of leave, is really us making a 
decision for free people that I don't think we need to make. I 
think that there are people who would prefer to have benefits 
and have leave time, and that's why a growing number of 
companies are offering, voluntarily offering different leave 
packages and additional flexibility. But moving to that one-
size-fits-all standard is going to erode wages, take-home pay, 
and really take away freedom and flexibility from workers.
    Mr. Allen. Mr. Brickmeier, this one-size-fits-all, could 
you address that in your competition for the top, the brightest 
talent out there? I mean, obviously you're looking at those 
types of things that would attract that kind of talent. What 
are some things that you're doing?
    Ms. Brickmeier. Exactly. And that is the issue with 
mandates, is they forget that one size does not fit all. Well, 
we like to have national policies, and we do, for our employees 
so that they know, regardless of where they work, they'll be 
entitled to the same types of protections and enjoy the same 
types of programs and benefits that we provide to everyone. 
They won't have to consider taking a new opportunity for 
advancement by moving across the country or even across the 
state or jurisdictional line because their benefits or their 
leave programs may be different.
    So being able to assess the needs of our workforce, which 
are primarily professional, exempt employees, we give a lot of 
flexibility and recognition of the fact that they are 
professional, they do work when needed, and they can take time 
off when needed. So we've designed an approach that really 
meets our workforce needs, we listen to our workforce, we 
respond as appropriately. And you can see in my testimony that 
we're always changing our programs and, in fact, mostly adding 
to them. And we also have to keep in mind what's happening in 
our business and the technology space.
    For example, for our maternity and paid leave for women, we 
want to give families the time off that they need, but we also 
want them to come back to work.
    Mr. Allen. Right.
    Ms. Brickmeier. And that's a strong motivator for us to 
design programs that accomplish those two goals.
    Mr. Allen. Right. Well, you know, as a Member of Congress, 
I had no idea so many people had so many problems with the 
federal government. Our office spends enormous amounts of time 
dealing with all these mandates out there and, frankly, the 
people are sick of them. In fact, they would like more 
flexibility to work out these agreements with their employers 
and to provide the kind of freedom and flexibility they need 
versus some government-mandated policy.
    To give you an example, I had someone that needed to donate 
a kidney to his sister. He's an hourly employee, and he had to 
be out for six weeks. And he got six weeks of paid leave. And 
that decision was made by our executive group. So, you know, we 
have that kind of flexibility in the workplace.
    I believe that, obviously, you know, we need to address 
this, and we need to come up with a solution, because there are 
bad actors out there, no question about it, but I think the 
workforce will take care of that.
    My time is up, and I yield back.
    Mr. Roe. I thank the gentleman for yielding.
    Ms. Fudge, you're recognized for five minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
all so much for being here today.
    I think we all realize that we live in a time where 
corporate profits and income and equality are higher than they 
have ever been. We are about to pass a tax bill that's going to 
continue to make the rich richer and the poor poorer.
    Council President, let me just ask this question to you. As 
you were talking with people about your Earned Sick and Safe 
Leave Law, was there anyone -- let me ask it this way. How many 
people ask you to reduce their pay so they could have a day 
off?
    Mr. Riemer. I don't recall anyone saying that.
    Ms. Fudge. Not one?
    Mr. Riemer. No.
    Ms. Fudge. Okay. Were they really looking for something 
that would allow them to live decent, to have a decent wage, 
and to be able to take care of their families?
    Mr. Riemer. We heard from so many of our community members 
who experienced injury, whose children have special needs, who 
have an aging parent, and they need to take some time off, and 
they need the right to do that. And that's what we established 
for them.
    Ms. Fudge. Thank you so much.
    Ms. Schaefer, I want to be clear, is it your argument that 
workers should make a choice between pay and the ability to 
take a sick day?
    Ms. Schaefer. No, it is not.
    Ms. Fudge. So what is it that you were saying?
    Ms. Schaefer. We are offering employees the flexibility. 
And H.R. 4219 --
    Ms. Fudge. But that flexibility depends upon whether they 
get paid for a day off? Explain to me.
    Ms. Schaefer. No, it's compensable leave. And so the 
employee is able to decide when they take the time.
    Ms. Fudge. So the employer cannot say to them, no, you 
can't take this day because I need you to do this.
    Ms. Schaefer. No. And that is current right now.
    Ms. Fudge. You're saying no?
    Ms. Schaefer. Right now, employers and employees have the 
discussion.
    Ms. Fudge. So the answer is yes, not no?
    Ms. Schaefer. Can you repeat your question?
    Ms. Fudge. You said no when I asked you that. So are you 
saying it is?
    Ms. Schaefer. Can you repeat your question, please?
    Ms. Fudge. I got your answer. Thank you very much.
    Council President, what can Congress do to help you and 
other States and municipalities make the work situation better?
    Mr. Riemer. Thank you for that question. Again, I'll say I 
think a strong Federal policy establishing a real right for 
workers to paid sick days, to family leave, a Social Security-
type program, so that workers can have access to a benefit in 
the event of the birth of a child in the family or, you know, 
an extended illness. That would be enormously helpful for local 
communities and state communities all across the country.
    And then those local communities that feel that they need 
to enhance upon that, to build upon that strong federal floor 
may yet seek to do so. But establishing the basic protection 
would be the appropriate role for Congress.
    Ms. Fudge. You know, it's interesting to me. I understand 
clearly that they are different standards and different 
industries or in different sectors, but what I have found is 
that the people who are hurt the most by not having paid sick 
leave are the poorest people. Most people who work in 
industries that are well paid either have it or can afford it. 
It is only those who cannot afford it that we are punishing by 
this.
    Mr. Chairman, I yield back.
    Mr. Roe. I thank the gentlelady for yielding.
    Mr. Rokita, you're recognized for five minutes.
    Mr. Rokita. I thank the chairman. I thank the witnesses for 
their testimony this morning.
    Ms. Schaefer, I'd like to pick up with you in the 
discussion that we're having. How many state and local paid 
leave mandates must Safety National continue to monitor and 
comply with?
    Ms. Schaefer. I'm counting. It is at least five.
    Mr. Rokita. At least five. Are there different mandates for 
paid sick leave versus paid family leave?
    Ms. Schaefer. Yes.
    Mr. Rokita. Can you walk through a few of those 
differences?
    Ms. Schaefer. Well, there's one getting ready to be enacted 
in January, actually, in New York. So, for example, we're 
working through that with our legal counsel to really 
understand what our obligations are there.
    Mr. Rokita. Okay. Any others or -- what are some of the 
differences between paid sick leave and paid family leave?
    Ms. Schaefer. So the sick leave would be specific to 
certain situations for the employee. And then paid family 
leave, it would go to -- it'd be extended to other individuals 
within the family.
    Mr. Rokita. But what's the difference in the mandates? I 
mean, how wide does it swing from the --
    Ms. Schaefer. In H.R. 4219?
    Mr. Rokita. The different mandates for paid sick leave 
versus paid family leave across the country.
    Ms. Schaefer. I would have to have SHRM respond to you for 
that.
    Mr. Rokita. Yeah, okay. I appreciate it. I'll get in some 
more detail about how complicated this is really going to be, 
or what your current situation is.
    Ms. Brickmeier, thank you. I know companies like IBM who 
are operating in multiple jurisdictions face significant 
challenges in complying with all different state and local paid 
leave laws. So same kind of question. But one response I've 
heard to that problem is that the company can simply comply to 
the most stringent one, the most stringent mandate, and 
therefore be covered. You kind of touched on this in your 
testimony, but go into more detail about why you think this 
isn't the best idea.
    Ms. Brickmeier. Well, I think I was referencing perhaps to 
San Francisco --
    Mr. Rokita. Yeah.
    Ms. Brickmeier. -- where most of the laws, although I can't 
speak with specificity, would say that if there's multiple laws 
that apply or mandates apply, the most generous might apply to 
an employee. And my point there was that because these mandates 
have so many different layers of responsibilities and 
obligations, even down to the number of days and what family 
members might be covered, a sibling might be covered in 
California but not in some other state, for example, a 
grandparent and maybe not, you would actually have to look at 
the employee's personal situation, which to me is a little bit 
intrusive to ask about those details. In many cases, the 
employer has no right to ask those questions, but you might 
have to in order to determine what would apply for that 
individual.
    The other thing I mentioned, which was the executive 
federal order, that we decided to apply it to all United States 
because we could not in any one day distinguish who was working 
on a Federal contract.
    Mr. Rokita. Okay. Thank you very much.
    Ms. Brickmeier. You're welcome.
    Mr. Rokita. Ms. Lukas, going to you now.
    You know, as a committee, we have focused, Mr. Chairman, 
our efforts on the need to bring many antiquated labor laws, 
like the Fair Labor Standards Act, FLSA, and the National Labor 
Relations Act, the NLRA, and other laws into the 21st century.
    How can Congress empower and encourage employers to 
continue offering these generous policies without mandating 
policies? Am I asking for the moon or is --
    Ms. Lukas. Sure. No. I mean, I think there's ways that 
we've discussed -- or the Independent Women's Forum has written 
about ways that you can use the Tax Code to encourage 
additional savings programs to help people who don't have leave 
laws. But also I think you're on to something in trying to 
focus on moving beyond the Fair Labor Standards Act, which has 
a pretty antiquated definition of worker and employee, which is 
becoming really out of touch as we move towards this world 
where so many people are telecommuters and gig employees, and 
we no longer have this, you know, 9 to 5 working in a factory 
or an office space with one boss. So I think the kind of taking 
a fresh look at those laws could be useful.
    And if I can just say one quick thing. There's been some 
discussion about this, the real importance of what we're 
talking about here is really where, I think, many people are 
concerned about people with low income. And we're talking about 
the -- I think that's really, when you look at who's lacking 
paid leave benefits, I think that's who everybody recognizes 
that that is a problem. But I would just caution that I think -
- when I worry about, when I think about the problems created 
by paid leave laws and mandates, that's who I'm worrying about. 
It's because I do think that it's the person we don't see. You 
went to see somebody who's an employee who's getting the 
benefit, you don't see the person who's then going to be priced 
out of a job. And that's a real problem and a real possibility, 
particularly for those with lower incomes. And anybody who's 
looked at a budget before knows that there is a tradeoff in 
benefits.
    When somebody goes away for six weeks for maternity leave, 
a small organization like mine, I can't just wipe my hands and 
keep paying them. I've got to pay somebody else. That's money I 
have to come up with.
    Mr. Rokita. Thank you. I can see my time is expired, Mr. 
Chairman.
    Mr. Roe. I thank the gentleman for yielding.
    Ms. Blunt-Rochester, you're recognized for five minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman and Ranking 
Member. And I'd like to thank the panel for this discussion.
    I had the opportunity to serve as State personnel director 
in the state of Delaware. I'm a former SHRM member. I lived in 
China, was a SHRM member there as well, and so I understand the 
complexities of trying to balance recruitment, retention, 
productivity of your employees with the cost of your ERP and 
trying to maintain that and -- so I understand that.
    And I guess one of the first questions I have is really 
trying to get from your perspective, Ms. Schaefer and Ms. 
Brickmeier. We talked about one size fits all, but I guess my 
question is, to have a national standard, to me, doesn't mean 
one size fits all. It means you've got a baseline, and then as 
an employer, depending on where I live in the country or where, 
what my budget is, that I can give more benefits than that.
    So can you just confirm for me -- because that's my 
understanding -- that by us having a standard, that doesn't 
mean we necessarily have to have one size fits all? Would you 
say that's correct?
    Ms. Schaefer. So the H.R. 4219 bill doesn't discriminate 
employers based on industry. Rather, we are identifying them 
based on size. So that's --
    Ms. Blunt Rochester. But do you understand my question? If 
we have a standard across the country similar to what has been 
done in Montgomery County, that doesn't mean that as an 
employer I can't give more?
    Ms. Schaefer. That's correct.
    Ms. Blunt Rochester. Okay. Thank you.
    And then my other question is really, I noted, Ms. Lukas, 
that you said in your testimony that, ``99 percent of 
businesses with more than 50 workers offer some form of paid 
time off to employees,'' end quote. And that that's from SHRM's 
own Families and Work Institute's 2016 National Study of 
Employers.
    I couldn't find that number, but I found some other 
interesting ones. Only 39 percent of employers with 50 or more 
employees give employees at least five days to care for a 
mildly-ill child. Only 58 percent of women receive some pay 
during maternity leave. Fifteen percent of spouses or partners 
receive any paid time off following the birth of their child.
    So given all of that, Council Member Riemer, can you talk a 
little bit about, until Congress does act with a proposal that 
can provide this kind of workplace leave policies, how are 
workers coping with the current policies?
    Mr. Riemer. Well, those employees that are fortunate enough 
to work at a company that wants to offer generous benefits, 
they're probably doing okay.
    Ms. Blunt Rochester. Right.
    Mr. Riemer. The rest of the employees are making impossible 
choices. They're showing up at work sick. They're infecting 
their coworkers and their customers. They're sending their 
children to work sick. They are leaving their family members 
alone and unattended when they would like to be with them. And 
they're not coping well.
    Ms. Blunt Rochester. Can you talk about the process that 
you went through in your community as you drafted the 
legislation and how it took into account the needs of your 
constituents, just what the process was?
    Mr. Riemer. We had legislation introduced at the Council 
and we had a public hearing with dozens of community members 
participating. Then we had a legislative process of nearly a 
year, multiple committee meetings, and then full council 
deliberations in action. It was a very thorough process. And 
then we gave up to 15 months after enactment of the law to work 
out the operational implementation issues. So it was a very 
deep engagement.
    Ms. Blunt Rochester. I also want to just say that I'm glad 
that we're having this conversation. It's probably, you know, 
again, next to pensions, probably one of the most important 
things that we need to look at. I focus a lot on the future of 
work, and particularly we talked about people who are middle 
income and lower income and just all of the changes that are 
going to be happening.
    When I look at the future of work, because of that, that's 
one of the concerns that I have about not having baselines. And 
I also lived in China, so I know when you don't have baselines, 
even for things like OSHA, it impacts us. There are best 
practices out there. And as a matter of fact, you know, we know 
that there are some great, great programs out there. So I just 
want to thank you.
    And I yield back.
    Chairman Walberg. I recognize, initially, now my friend 
from the Marianas, Mr. Sablan.
    Mr. Sablan. Mr. Chair, I ask unanimous consent to permit 
Representative Rosa DeLauro to be recognized and participate in 
today's hearing.
    Chairman Walberg. Without objection, the gentlelady, who 
does not serve on the committee but has legislation dealing 
with our concerns, is allowed to sit on the committee.
    Mr. Sablan. Thank you.
    Chairman Walberg. And will be allowed to ask questions at 
the end of questioning.
    Mr. Sablan. Thank you very much.
    Chairman Walberg. Now I recognize the gentlelady from 
Georgia, Mrs. Handel.
    Mrs. Handel. Thank you, Mr. Chairman. Thank you.
    And to the witnesses today, I apologize for missing your 
oral testimony, but I did have an opportunity to read through 
the written testimony yesterday. So thank you very much for 
sharing that with us.
    I wanted to start with Ms. Lukas, if I might, given the 
exchange that we just had about the percentage of companies 
that are or are not offering these types of benefits. It 
strikes me that just because something is not mandated, it does 
not mean that a company is not willing to or already 
voluntarily offering a lot of these different paid sick and 
paid family leave.
    I was wondering, given that we have a scenario in the 
European Union where this type of thing is mandated, here in 
the United States, what do you see as the impact, potential 
negative effect on workers in this country if we were to do a 
blanket mandate of this nature, and especially on working 
women?
    Ms. Lukas. Yeah. You know, and it's interesting, because I 
do think that we've got such an exciting time for women in 
having so many workplace opportunities, we're encouraging women 
to lean in. And I do think that we, you know, we hear a lot 
about the benefits of what happens in Europe, with, you know, 
obviously, there's something wonderful about taking months off 
after the birth of a child. But there are some negative aspects 
of it that I think are often overlooked.
    And that includes that there's a lot of women who do feel 
pigeon-holed. Not everybody wants to take off six months after 
work to spend that much time at home with their newborn, but 
these expectations for women certainly do create kind of a 
lean-out mentality. And then there are many fewer women in 
Europe who are serving in leadership positions. Their labor 
force participation rate is relatively high, but a lot of that 
is part-time work or lower-paid work. So there are real 
consequences to this.
    And I would say that, also, I think that it's important to 
recognize that not everybody is a mom. And especially there's 
not a lot of folks who aren't parents who don't want this, and, 
of course, they may have other aspects. But we all know that 
there is something, and we need to be respectable of this idea, 
of what happens when somebody takes off work that somebody else 
has to pick up that work. And there are some full-time workers 
who end up resenting the extra burdens that they face when 
these generous, especially in Europe, these generous leave 
packages.
    Mrs. Handel. Okay. Thank you.
    Moving to Ms. Schaefer, in your testimony, you noted some 
research that millennials, in particular, value flexibility 
over compensation, with 35 percent of millennials being willing 
to take a 10 to 20 percent pay cut in exchange for flexibility 
and these broader leave policies. Have you personally seen this 
trend throughout your 20 years of experience? And can you tell 
us a little bit about that?
    Ms. Schaefer. Yes. Thank you for your question. I have. And 
currently, at Safety National, 27 percent of our workforce 
falls into the category of millennials, and that's exactly what 
they're asking for, is that flexibility. And because we are 
listening and working with them, we're able to meet the needs 
of the business as well as the needs of the employees.
    Mrs. Handel. Okay. Great. So it strikes me that what we 
need to be focused on is ensuring that we have a robust, free 
market flexibility approach to all of this.
    My second question, also for you, Ms. Schaefer, as we 
discuss paid leave today, I have heard it referred to, frankly, 
as both a policy and a benefit. So how would you see it? Is it 
a benefit? Do most people come in to the workforce assuming 
that there's some sort of benefit in that area or do they see 
it more as a policy or as a part of their package, if you will?
    Ms. Schaefer. Right. In my experience, it's a benefit, so 
very much so.
    Mrs. Handel. Great. Thank you.
    Mr. Chairman, I yield back. Thank you so much.
    Chairman Walberg. I thank the gentlelady.
    And now I recognize my friend from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And I 
apologize for leaving. I have a Science Committee at the same 
time. So thank you for holding this hearing. Thank you to our 
witnesses, all for being here.
    You know, it's pretty clear that our workplace policies 
have not really kept pace with the changing workforce, and I 
think we all agree with that. Everyone who is here today 
testifying and all the members recognize it in different ways. 
And because we know that paid leave is good for families and 
businesses, policymakers will continue to address this issue.
    I thank you, Mr. Riemer, for explaining that from your 
perspective.
    My state of Oregon has been a national leader in passing 
legislation to provide workers with paid sick days and 
predictable schedules. And Oregonians have been able to earn 
and use job-protected sick time to care for themselves or for a 
family member. For nearly two years, our paid sick days law 
allows workers to earn 40 hours of sick time a year that can be 
used for their own immediate family member or for preventive 
care. The law also allows paid sick time to be used for 
domestic violence survivors to obtain services, a really 
important aspect there, and almost half a million workers 
benefit from this law. And that makes Oregon a better place for 
families to live and work.
    And importantly, these policies, as Mr. Riemer explained, 
help businesses recruit and retain good, loyal employees. And 
that decreases turnover and costs associated with hiring and 
retraining. Simply put, a healthy, happy workforce is good for 
business.
    And Susan is a woman in Portland who experienced great 
hardship before the law passed, taking care of herself in an 
illness. She had worked in a grocery store for 15 years, and 
she did not have sick time until the third day of an illness, 
and only then with a note from her doctor. She explained that 
she had to go to work sick all the time because she couldn't 
afford to take unpaid days, even to go to the doctor. When she 
absolutely had to stay home, she had to decide which bill she 
could pay. She's a mother who also needed sick time to be home 
with her kids when they were sick. In fact, her employer of 15 
years wrote her up for taking too many unpaid sick days, and 
she was terrified about losing her job. So these are the harsh 
realities of life without paid or protected sick time for low-
wage workers, especially around the country.
    So we've heard from members on the other side of the aisle 
about H.R. 4219, which does not solve the problem, because 
that's voluntary. We know that states and local jurisdictions 
will continue to address their needs of their constituents, 
like Susan. And that's what Oregon did.
    Unfortunately, this 4219 will eliminate and undermine sick 
leave policies for workers in Oregon and around the country who 
are lucky enough to live in a state or a jurisdiction that has 
implemented paid sick time, and it will stifle innovation and 
state legislatures and local governments. The reason states and 
local governments are acting is because the federal government 
has not.
    So if we really want to help workers and families, we 
should be talking about the Healthy Families Act, which I know 
our colleague, Congresswoman DeLauro, will talk about. And also 
the FAMILY Act, for paid family leave. That's what we should be 
discussing today. And until we set that federal standard, State 
and local governments need to be able to act.
    So I know, President Riemer, you talked about your law 
being in place since October of 2016. And can you talk a little 
bit about how your businesses have responded? How is the 
community affected? And what are some of the -- have you seen 
negative effects? And what are some of the positive effects?
    Mr. Riemer. Thank you, Congressman. I really enjoyed your 
comment there. We think our law's been a big success. We are 
not hearing from employers that it has been an undue burden for 
them to make the minor adjustments in their payroll system that 
it takes to track. And we certainly are hearing from employees 
that they appreciate the rights that have been granted to them 
by our local government's law.
    And we know that we had to work closely with our major 
employers to help establish that nothing that we did in our law 
would, you know, require them to change their policy. And that 
was important to us because we really appreciate our large 
employers, and we want them to thrive and prosper in our 
community. And if they're offering better than the requirement, 
we don't want to disrupt that.
    Ms. Bonamici. Thank you. And when I'm in Oregon, I 
participated several years in a wonderful event called When 
Work Works. And we have many small businesses come forward. 
Because oftentimes, you hear that these policies are a burden 
on small businesses, and they talk about how it actually helps 
them with recruitment, with retention.
    And, Mr. Chairman, before I close, I want to ask unanimous 
consent to enter into the record a letter from Patagonia's vice 
president of Human Resources and Shared Services. The letter 
explains the outdoor retailer's investments in their employees 
and how they have seen it help both their employees and their 
bottom line.
    Chairman Walberg. Hearing no objection, it will be entered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Bonamici. Thank you, Mr. Chairman. And I yield back.
    Chairman Walberg. I thank the gentlelady.
    And now I recognize the gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson of South Carolina. Thank you very much, Chairman 
Tim Walberg, for your leadership. And your service means so 
much to the people of Michigan and South Carolina and all of 
the United States. Thank you.
    Ms. Schaefer, how have workplace leave policies changed 
over the last 10 years? Do you think the economy, over the last 
eight years, has affected the employers' ability to provide 
leave policies and flexibility to employees?
    Ms. Schaefer. Yes, I do think the economy has had an 
impact. I can only speak from my experience with my current 
employer and that it is a business decision when it comes to 
the leave offerings that we're able to make.
    Mr. Wilson of South Carolina. And with a growing economy, 
as we're seeing and can anticipate, particularly with the tax 
cuts that will enable businesses to create jobs, that should 
have a very positive impact.
    Ms. Schaefer. I'm not able to speak to that specifically.
    Mr. Wilson of South Carolina. Well, hey, I see it in the 
State I represent, and just to see the consumer confidence at 
record levels, to see, as I have actually had the opportunity 
to have a discussion with President Trump, about the increase 
in the stock market from the day that he was elected to where 
we are today; 5,000 points, 23 percent. I'm just so 
enthusiastic for the growth of our economy and job 
opportunities for the American people.
    Ms. Lukas, can you talk about the tradeoffs that come with 
government mandates? How do these mandates impact job 
opportunities and overall employee compensation?
    Ms. Lukas. Yes. You know, I think that everybody knows 
who's had a budget, when you look at the cost of somebody that 
you're hiring, you have to look not just only at the dollars 
that they're going to get in their take-home pay, but you have 
to look at how much you have to spend in taxes, payroll taxes, 
and benefits. And so as we increase benefits, that's an 
additional cost that employers have to factor in. It means 
lower compensation or fewer jobs that you're going to be able 
to offer.
    You know, when we have, at my small organization, when 
somebody goes off for leave for six weeks, I can't just push 
that off onto somebody, all the responsibilities off to 
somebody else, so I have to hire another person. And that's 
money that I won't have to give other raises or for other uses.
    So there's a real economic tradeoff with that. It doesn't 
mean that benefits are a mistake, but you do have to factor 
them in when you are doing a budget, especially if you're a 
small organization.
    Mr. Wilson of South Carolina. And thank you very much of 
your presidency of the Independent Women's Forum.
    Ms. Lukas. Thank you.
    Mr. Wilson of South Carolina. Making a difference on behalf 
of the people of our country.
    Ms. Lukas. Thank you.
    Mr. Wilson of South Carolina. Ms. Brickmeier, some have 
suggested that businesses that are large enough to operate in 
multiple jurisdictions readily have the capacity to establish 
different business processes according to their jurisdictions. 
You've noted that IBM spends a great deal of time complying 
with ever-changing state and local mandates. Do you agree with 
the statement that if a business is large enough to operate in 
more than one state or locality, they should accept this 
patchwork of paid leave mandates as a result? Why not?
    Ms. Brickmeier. Well, no, I don't accept that. As a 
premise, we might have to accept it if the mandates are there, 
and they certainly are there now. But what we're really 
advocating for is, just like we have in healthcare with ERISA 
preemption, which has worked remarkably well since the 1970s, 
since it's been enacted, we're advocating for something very 
similar to that where local mandates would apply, unless a 
company opts in to a national standard.
    Mr. Wilson of South Carolina. Thank you very much. And in 
your testimony, you note that IBM provides a generous paid 
leave policy that includes a minimum of 15 days paid vacation, 
up to 26 weeks of full or partially paid short-term disability, 
12 weeks of paid child bonding leave for new parents, in 
addition to paid sick leave. Does IBM provide this leave to 
keep up with any particular state or local mandate? And how is 
this mandate administered across the country?
    Ms. Brickmeier. So all of the things that you referenced 
were independent of any mandates, right? We've had these 
policies for many, many years. They are developed based on our 
workforce and our industry. And as I said, we just added the 
12-weeks parental leave, and that was purely on our own 
volition, based on the needs of our workforce and wanting to 
keep parents in the workforce once they take time off with 
their kids.
    But as we think about expanding that, our employees have 
asked for different types of paid leave, which we're 
considering. But we actually might have to consider something 
different, maybe say no, or think about different designs, 
because we have to figure out how they fit in with certain 
mandates. And particularly in New York state, which we have a 
lot of people in, and it was mentioned that there's a mandate 
coming in on January 1, and as was also stated, we only have so 
much budget, so many compensation dollars to manage our 
workforce and to be able to meet our business commitments, and 
so there would have to be tradeoffs.
    Mr. Wilson of South Carolina. Thank you all for being here 
today.
    Thank you, Mr. Chairman, for your leadership.
    Chairman Walberg. I thank the gentleman for your kind 
words. I gotta figure out what I owe you.
    Mr. Wilson of South Carolina. Just do a good job. That's 
it.
    Chairman Walberg. I now recognize my friend and a proud 
Harley rider from New Jersey, Mr. Norcross.
    Mr. Norcross. Thank you, Mr. Chairman and Ranking Member, 
for putting this committee hearing together, focusing on 
something that every one of us experience -- sick time, family 
time -- and just to have a discussion on today's environment 
and how tough it is to balance what we do every day.
    I was a single dad. It was tough. I had help from my 
parents and was able to do it, but it's trying to make things 
work. So for each of you coming and sharing your experience, we 
appreciate it.
    Obviously, there's a huge difference. There's large 
corporations like IBM who have a very generous policy. An $80 
billion a year company has resources to do this. But we also 
understand that the businesses have to take into account both 
sides of the equation. And that's one of the things I'm trying 
to look at when we start looking at the 4219. We're all talking 
about helping those workers successfully raise a family and 
manage life, yet it becomes voluntary.
    Thirty-seven million workers today have no sick time. 
Thirteen percent of private industry, you cannot earn sick 
time. So if we're trying to create a foundation and that 
employers will do the right thing, I'm confused on how you try 
to put these numbers together. If employers are going to do the 
right thing in balance, why only 13 percent make this 
available? And that's the tough part that we're trying to 
reconcile here.
    Ms. Lukas, you said that you don't think -- or I'm 
paraphrasing -- for workers, it's a good idea for them to have 
these benefits. They'd rather have an extra $10 in their 
pocket. I think they'd rather have both, quite frankly, but we 
understand that balance.
    Ms. Lukas. An ideal world, certainly.
    Mr. Norcross. Yeah. Show me where that world is. I think 
we'll all move there.
    Ms. Lukas. Of course.
    Mr. Norcross. One of the trends that has been happening, 
particularly in healthcare, is paid time off, which, in 
concept, doesn't go into why you're taking the day off. You're 
just out.
    So when we're looking at these, Ms. Schaefer, how do you 
balance PTO versus sick time and family leave, particularly 
with regards to the tax credit piece that we're looking here?
    Ms. Schaefer. So the paid time off, as you know, can be 
used for any reason. And so if an employee is, in fact, sick or 
needs to take care of a sick child, they don't have to report 
that to us; they're just saying that they need to take time 
off.
    Mr. Norcross. So how are you going to address that to get 
the tax credit? You're now going to have to set in a new policy 
and mandates that say, if you're taking a sick day off, we need 
to verify that versus a vacation day or mental health day. How 
are you going to do that?
    Ms. Schaefer. The employees would be able to take the time. 
We wouldn't be requiring them --
    Mr. Norcross. So then you can't get the tax credit. You 
would forego the tax credit rather than answer that question?
    Ms. Schaefer. I would have to have SHRM follow up with you 
on that.
    Mr. Norcross. Okay. How would IBM handle this? Do you have 
PTO?
    Ms. Brickmeier. I know what you're referring to, and we've 
been looking at that as well. And it's absolutely correct. 
Right now, we don't ask any questions for incidental sick time, 
paid time off, vacation. It's yours. You can take it as you 
wish. And I think it's very intrusive to have to ask these 
questions. These are very personal questions.
    But you're absolutely right. If there were a tax credit for 
certain days off, we would then have to add another compliance 
burden to ourselves and ask very difficult questions of our 
employees. But that's correct.
    Mr. Norcross. I would assume you expect, if you're going to 
get tax credit, which means taxpayers' money, they have a right 
to understand what this is being used for.
    Ms. Brickmeier. I understand that, yes.
    Mr. Norcross. So Ms. Lukas, do you have any thoughts on 
this? This creates another mandate if you want the tax credit.
    Ms. Lukas. Yeah. I mean, I think there is a concern. Sorry. 
I think there is a concern. I do think that we need to try to 
allow businesses and employees to work out the different 
benefit packages that make sense for them, and I worry about 
creating some favored pools of leave over others. I prefer it 
to be more broad.
    Mr. Norcross. If that's going on and employers want to do 
the right thing, how do you explain only 13 percent?
    Ms. Lukas. Well, you know, I think your 13 percent -- I 
think it's hard to -- often there's a lot of different 
statistics out there. And I like looking at the Census Bureau 
to see people, how they report their experiences with 
employers, because a lot of employers have one bucket of leave 
that they can use for something like family leave.
    Mr. Norcross. This is what we were talking about, right, 
the different pockets.
    Ms. Lukas. Yes. And so it does show that the --
    Mr. Norcross. So let's say 25 percent.
    Ms. Lukas. Yes.
    Mr. Norcross. That means 75 percent aren't doing it.
    Ms. Lukas. No. But I think when it comes to full-time 
workers, that it's well over 50 percent of first-time mom's 
report having some paid time off from work.
    Mr. Norcross. Some paid time off.
    Ms. Lukas. Yeah. I mean --
    Mr. Norcross. So if they gave them an hour, that would 
qualify?
    Ms. Lukas. Sure. You know, and I do think, you know, when I 
heard the story of the --
    Mr. Norcross. We're out of time.
    Ms. Lukas. Sorry.
    Mr. Norcross. I'm sorry. So I appreciate your testimony.
    I yield back.
    Chairman Walberg. I thank the gentleman.
    I recognize the gentlelady from New Hampshire, Ms. Shea-
Porter.
    Ms. Shea-Porter. Thank you very much. And, Mr. Chairman, I 
ask unanimous consent to enter into the hearing record a 
statement from the National Treasury Employers Union in support 
of paid parental leave legislation for federal workers. And I 
add my voice in support of this and other legislation to 
establish robust and common sense paid leave policies for all 
workers, public and private sector.
    Chairman Walberg. Hearing no objection, it will be entered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Shea-Porter. Thank you.
    So the Bureau of Labor Statistics said that -- Mr. Norcross 
also said -- 32 percent of private sector's employees cannot 
earn a single day. Thirty-two percent. So as we're talking 
about all this, we know that 1 in 3 Americans cannot earn a 
single day. This is particularly important to me right now 
because my daughter had a preemie baby. And because of her good 
company and because of her husband's good company, they were 
able to be at the hospital and be there together. And what a 
difference that made.
    And so as I think about all those people that we're talking 
about, one-third of Americans can't have a single day off. This 
is what we should be focused on. And yet I have not heard the 
panel express, for the most part, the recognition that we're 
not doing right by the workers of this country. And I hope that 
we'll hear more advocacy about this.
    So I would like to ask each one of you to just say yes or 
no, please, about the Healthy Families Act, H.R. 1516, 
Representative Rosa DeLauro sitting here, and thank you for 
this bill.
    This bill requires employers to employ at least 15 
employees to provide employees with up to seven paid sick days, 
which can also be used to take time off to address domestic 
violence. Employees would earn one hour of paid sick time for 
every 30 hours. So they would just get one hour of sick time, 
up to seven paid sick days. Do you support that and does your 
organization support that?
    Ms. Schaefer. SHRM does not support that.
    Ms. Shea-Porter. Thank you.
    How about you, Ms. Brickmeier?
    Ms. Brickmeier. I would have to say we have no opinion on 
the bill at this time.
    Ms. Shea-Porter. That's interesting. And --
    Mr. Riemer. Strongly support that. Thank you.
    Ms. Shea-Porter. Thank you. And --
    Ms. Lukas. No, we do not support that.
    Ms. Shea-Porter. No. Okay. So when we're talking about all 
of these people who don't have coverage, three out of four of 
you said that you don't support just seven sick paid days.
    May I ask each one of you if you have seven sick paid days 
or more, please? Yes or no.
    Ms. Schaefer. We don't have sick time. We have a general 
paid time off bank.
    Ms. Shea-Porter. But more than seven days?
    Ms. Schaefer. Yes.
    Ms. Shea-Porter. Thank you.
    Ms. Brickmeier. Yes.
    Mr. Riemer. Yes.
    Ms. Lukas. Yes.
    Ms. Shea-Porter. Isn't that wonderful. I'm so glad that you 
do. And you know what, everybody sitting here has time off too. 
Isn't that great? How are we leaving one-third of American 
workers and their families behind?
    So I ask each one of you there sitting to think about what 
you just said, that you have it, and yet you're comfortable 
sitting here saying, no, we don't support that.
    Ms. Brickmeier, I was impressed by your testimony, because 
you were talking about how difficult it is for IBM to comply 
with all of these regulations right now. And I'm going to 
quote: ``An overwhelming challenge has resulted from the burden 
created by myriad inconsistencies in the very State and local 
laws, the speed at which new laws and amendments arise, and the 
sheer number and range of requirements applicable to IBM's 
operations around the country.''
    And, of course, IBM is a massive company that's able to do 
work around the world, so I'm sorry it seems like such a 
burden. But here is the thing that I find interesting. Let me 
be very specific -- this is you again. ``In the area of paid 
sick leave, by my last count, there were six states'' -- that's 
6 out of 50 -- ``2 counties, and roughly 29 local ordinances 
covering paid sick leave.''
    Is that really that overwhelming for IBM, a big company, to 
work with just six states, two counties, and roughly 29 local 
ordinances that cover paid sick leave? Is that really a 
problem?
    Ms. Brickmeier. Well, it did take us nine months to figure 
out -- and the executive order as well -- to figure out the 
jurisdictions, who was eligible, what the rules were, and then 
compare and contrast them.
    Ms. Shea-Porter. Okay. Thank you.
    Ms. Brickmeier. So it's not just what you said. It's all 
the combination and permutations.
    Ms. Shea-Porter. All right. Thank you. But it still seems 
amazing to me.
    And, Ms. Lukas, you said 99 percent of businesses with more 
than 50 workers offer some form of paid time off. Are you aware 
-- and this is Treasury Department -- that 96 percent of 
employers have fewer than 50 workers?
    Ms. Lukas. Absolutely. And those workers and those 
companies have a very different situation and costs that they 
have to consider and make budgets.
    Ms. Shea-Porter. Right. So we're still leaving more workers 
behind. The suggestion by the number sounds like their covered, 
but we're leaving them behind.
    And my final point, because we're running out of time here, 
is that you said we should enable workers to save tax-free for 
time off, right?
    Ms. Lukas. Uh-huh.
    Ms. Shea-Porter. Do you know what the minimum wage is in 
this country?
    Ms. Lukas. Yes. I -- but that doesn't -- I mean --
    Ms. Shea-Porter. So how, if you're supporting that, because 
I know a lot of people in my district, in my community, who 
work two jobs just to feed their children and get a little roof 
over their heads. They don't have any money to save to put into 
the tax-free account for time off. So do you still think that's 
a solution?
    Ms. Lukas. I think it's the start of a solution. It is very 
hard to find jobs for and to find a way to get low income 
workers, the minimum wage workers, paid time off without 
displacing them from their jobs. Because I worry very much 
about them losing their jobs, not just about the benefits that 
they have --
    Ms. Shea-Porter. Okay. Let's say that they're fortunate 
enough to earn $10 dollars an hour. Okay. It's $400 a week, and 
that's $1,600 a month, and they have to pay taxes out of that. 
$1,600 a month. Rent where I am is about $1,000. You have a 
couple of kids, that's it.
    So even though that sounds good, I am just imploring you to 
look at that again and recognize that that is not real. That is 
not possible.
    Chairman Walberg. I thank the gentlelady.
    Ms. Shea-Porter. Thank you very much.
    Chairman Walberg. Your time is expired.
    Ms. Shea-Porter. I yield back. Thank you.
    Chairman Walberg. And I'm pleased to offer an opportunity 
for 5 minutes of questioning to the gentlelady from the 
Appropriations Committee, who comes over to our subcommittee. 
We're glad to have you today. Welcome for five minutes.
    Ms. DeLauro. Thank you very much, Mr. Chairman. And thank 
you both, Mr. Chairman and Ranking Member, for allowing me to 
participate in this hearing today.
    I just want to make one very, very quick point. You all 
have talked about the number of sick days that you have. Let me 
just tell you that the United States Congress, we have an 
infinite amount of sick days. We can get sick for several 
weeks. Our kids can get sick for several weeks. Our parents can 
get sick for several weeks. I know this personally. My mom 
passed away this summer. I spent six weeks with her. My pay was 
not docked. I did not lose my job.
    When I was sick with ovarian cancer and had to leave for 2-
1/2 months as a staff member to a United States Senator, my job 
was there. He said go, get well. It will be there. That should 
not be just the prerogative of all of you with your seven days, 
or probably more, or Members of the United States Congress to 
have that kind of an effort.
    Let me just try to correct the record, if I can, in two or 
three points, and then I'll ask a question.
    And, Ms. Lukas, your IWF research says here: Universal paid 
leave will force businesses to provide paid family and medical 
leave benefits.
    This is not what the FAMILY Act does. It creates a fund 
with shared contributions. It is social insurance, employers, 
employees pay-in. The FAMILY Act, Healthy Families Act is not a 
mandate. There is nothing that prevents employers from offering 
more generous benefits above the baseline.
    My colleague pointed out an estimated -- that's National 
Partnership for Women and Families -- estimated 37 million 
private sector workers cannot earn a single paid sick day, does 
nothing to be able to help them.
    And I also read all of the testimony, so I'm sorry I wasn't 
here for it, but I read all of them. And I just want to make a 
couple of things in correcting the record, Ms. Lukas. And I'll 
say this: I think some of the -- you're right, there are 
various statistics, but I think some of these statistics were 
cherry-picked.
    But let me talk about actual numbers that came from the 
same study that you quoted. Only 39 percent of employers with 
50 or more employees allow employees at least five days to care 
for a mildly-ill child. Only 6 percent of the total population 
of employers with 50 or more employees offer full pay during 
maternity leave. Thirty-nine percent offer partial pay. Eleven 
percent say it depends on the situation. Forty-two percent 
offer no pay at all. Fifteen percent of spouse, partners 
receive any time -- they don't receive any time paid off -- 
paid time off following the birth of their child. Less than 
half the workforce, 47 percent, allow all or most employees to 
take time off during the workday to attend an important family 
or personal needs without the loss of pay. Full 25 percent of 
companies do not comply with FMLA requirements for unpaid 
leave. This is DOL research.
    Just one more -- this is outrageous that we do not 
understand the lives that families are leading today. And I 
just --
    I will ask a question of Ms. Birckmeier -- Brickmeier, I 
apologize -- with regard to IBM, you have a generous package. 
You do have a generous package. I applaud you for all of that. 
Why, then, you exceed these baselines? Why wouldn't -- why 
wouldn't it -- why won't you not embrace national paid sick 
days law or a national paid family and medical leave fund?
    In essence, what this piece of legislation does, if you 
take a hard look at it, it is voluntary. There is minimum 
amount of compensation. Employers decide whether or not the 
employee can go. There are six arrangements. If you don't fit 
into this little box, then you're on your own. There is no 
compliance with state and local -- and there may or may not be 
overtime pay. It's ludicrous what's been described as overtime 
pay.
    Why, Ms. Brickmeier, would you not embrace national paid 
sick days? As my colleague from New Hampshire pointed out, 
we're looking at several states, some localities. The structure 
of these is all the same. All the same. It is not the kind of 
patchwork that some would like to say it is.
    Chairman Walberg. Five seconds left.
    Ms. DeLauro. In my view, it would allow people to walk 
around State and local laws that we have today, and maybe 
that's what people want.
    Chairman Walberg. The time is expired, but briefly respond 
to that.
    Ms. DeLauro. Ms. Brickmeier?
    Thank you very much.
    Ms. Brickmeier. Okay. So I can't comment specifically on 
the bill that you're representing, but I would take issue with 
the fact that the local, state mandates are the same, because 
they're not. And as I said, what I'm really here to advocate 
for is a federal preemption for those companies who are 
multijurisdiction, who decide to opt out and have something at 
the federal level for all of their employees, as opposed to 
having to comply with the patchwork of bills that -- or 
mandates that could be very significantly different and are 
amended.
    Ms. DeLauro. A national policy would not be a patchwork.
    Chairman Walberg. Thank you for the question and the 
response. The time has expired.
    And before I offer the ranking member closing comments, I 
have a letter in support of H.R. 4219 from the Progressive 
Policy Institute that I ask unanimous consent to insert in the 
record, without objection.
    Hearing none, the letter is inserted.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Walberg. Mr. Sablan, your closing comments.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And I would really like to thank the witnesses for taking 
time to discuss this important subject with us today.
    I'm reminded of two things, if I may. One, the district I 
represent, the law -- the law of the government, minimum wage 
is at $3.05 an hour today. And the federal government -- 
Congress stepped in and raised the minimum wage in incremental 
steps. And next year, it would be at $7.25 an hour. But the 
government, the law there still is at $3.05. It shows 
absolutely no desire to increase it. And they paid a very 
famous lobbyist millions and millions of dollars to fight the 
Federal Government from implementing increasing minimum wage 
for workers.
    Another thing I would like to -- as I remember my dad who 
worked, and when he retired he had over 2,000 hours of sick 
leave, and he gets, I think, 13 hours a year -- I mean 13 days 
a year, and he had over a year of sick leave, because he 
doesn't get sick and so he doesn't call off.
    But anyway, workers don't need another false promise. They 
should not have to choose between caring for themselves or a 
loved one and earning a paycheck. We have heard today about 
innovative solutions to this issue that's being developed at 
the state and local level. But Congress must act to guarantee 
minimum workplace protections for all working people, while not 
preempting State and local government.
    Mr. Chair, I would like to submit to the record three 
letters: One from over 100 groups opposing H.R. 4219, the 
Workflex in the 21st Century Act; another letter urging 
Congress to pass the Healthy Families Act; and a third letter 
is from momsrising.org.
    Chairman Walberg. Without objection. And hearing none, they 
will be entered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Sablan. Thank you.
    And, Mr. Chairman. I urge this Committee to take up the 
policies that are based on the successes of the state and local 
level, like the Healthy Families Act, the Schedules That Work 
Act and the FAMILY Act; solutions that would actually help 
workers and their families succeed.
    And if I may, I urge -- I'm actually a little happy that we 
have -- we may actually have an ally in the White House that is 
supporting some kind of forward movement on family leave.
    So, Mr. Chairman, thank you for holding today's hearing, 
and thank you -- really, thank you very much for being here 
today.
    Chairman Walberg. Well, I thank the gentleman. And you're 
absolutely right. And I think that's why these hearings are 
taking place.
    And, Ms. DeLauro, delighted to have you here today. If you 
could just get some passion about your legislation, it would go 
a long way.
    I want to thank the witnesses for being here too. You've 
taken your time. You've prepared. It's no easy answer, but, 
hey, it's the best way to live in America. No easy answers. We 
have got the choices an opportunities that go on.
    And this is just another of our hearings, and I think it is 
because we have questions in this area and we have needs. The 
questions such as can employers be trusted to make good paid 
time off decisions for both themselves and their employees? Or 
can we develop productive paid time off legislation that 
fosters good relations between employees and employers, while 
not violating our constitutional federalism in regards to the 
state and local primacy? And that is an important question to 
consider.
    While no one local or state paid time-off policy may be a 
backbreaker for a national or a global business, we certainly 
ought to at least consider how we can keep from unnecessary 
encumberments that take away options and creativity and 
sensitivity to the flexibility of needs of human beings that 
are different and their situations that are different.
    In the end, the robust competition today that we see, I 
certainly see in my Seventh District of Michigan, competition 
for qualified employees is probably the strongest motivator for 
employers to put paid time off policies, as well as many other 
policies in play in order to compete for employees in this 
workforce. And so it's good that we are now having these 
discussions in the marketplace, in the House, in the Senate, in 
the White House, as has been mentioned, truthfully, and both 
sides of the aisle.
    And I want to commit myself to continue this toward the 
best solution that we can find that meets the needs of growing 
economy, growing options for employees and employers, growing 
as best care as we can give in their ever-developing process in 
the marketplace. And certainly something that we wrestle with 
rightly so on the Education and Workforce Committee, because 
they go hand in hand, and we want to produce growth.
    So thank you for attention to this hearing today. We will 
look forward to the future. And with no other testimony or 
issues before the subcommittee at this time, it stands 
adjourned.
    [Additional submission by Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
